<html>
<title> - THE INTERNATIONAL SPACE STATION</title>
<body><pre>[Senate Hearing 108-1008]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 108-1008

                    THE INTERNATIONAL SPACE STATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
20-770 PDF                        WASHINGTON : 2016                          

 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>  
      
      
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                
                                
                                ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2003.................................     1
Statement of Senator Brownback...................................     1
Statement of Senator Nelson......................................     2

                               Witnesses

Li, Allen, Director, Acquisition and Sourcing Management, U.S. 
  General Accounting Office......................................    11
    Prepared statement...........................................    14
Park, Robert L., Department of Physics, University of Maryland...    20
    Prepared statement...........................................    21
Pawelczyk, Ph.D., James A., Associate Professor of Physiology and 
  Kinesiology, Pennsylvania State University.....................    23
    Prepared statement...........................................    25
Readdy, William F., Associate Administrator for Spaceflight, 
  National Aeronautics and Space Administration; accompanied by 
  Mary Kicza, Associate Administrator for Biological and Physical 
  Research.......................................................     3
    Prepared statement...........................................     7
Zygielbaum, Arthur I., Director, National Center for Information 
  Technology and Education, University of Nebraska...............    28
    Prepared statement...........................................    30

                                Appendix

Letter dated March 2003 from Mr. Masse Bloomfield, Canoga Park, 
  California.....................................................    51

 
                    THE INTERNATIONAL SPACE STATION

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 2003

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:10 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. I want to thank you all for joining us 
here this afternoon. This is the second hearing today on NASA 
and space station issues. I appreciate having the opportunity 
to hear from our witnesses regarding the safety and the future 
of the International Space Station.
    It has been a big day on the Hill for the space industry. 
This morning, Senator McCain held a hearing on the future of 
NASA, and the House held a hearing on the management issues at 
NASA. This afternoon, we'll be talking about the future of 
NASA, but our focus is specifically on the International Space 
Station, ISS.
    In just the past week, there has been a lot of public 
discussion about the International Space Station. The 
Washington Post last week reported on the safety factors aboard 
the International Space Station. The Post reported that prior 
to the Expedition 8 crew being launched to the space station, 
two NASA health and environment officials objected to the 
launch citing concerns of potential degradation of the 
environmental monitoring and health maintenance systems. There 
have been follow-up articles on this issue in the Post, 
including an editorial by NASA Administrator Sean O'Keefe. All 
these articles will be made a part of the record.
    This hearing was planned before the press began to report 
the initial concerns at NASA, but this hearing is turning out 
to be quite timely. I'm pleased that Mr. Readdy is here today, 
along with the rest of our panel. I'm looking forward to a 
candid discussion between all witnesses on this subject.
    I'd like to thank all the witnesses for being here today. 
It's my hope that this hearing will help to clarify and 
alleviate the immediate concerns we share here in Congress with 
regard to the astronauts' safety aboard the station.
    The recent reports draw our attention to the safety issues 
on the space station and whether or not the mission and 
scientific research done aboard the station is enough to 
sustain a national vision for space exploration.
    Last week, I met with Mr. Readdy. He was kind enough to 
come to my office, and I asked him to provide me with a list of 
experiments being conducted aboard the ISS. I have gotten some 
feedback, and I will be questioning Mr. Readdy in our 
discussion about this today, and I do want to get a full list 
of all the experiments being done or conducted on the ISS so 
that we can have a full vetting about the quality of the 
science aboard it.
    I also want to talk today about the Orbital Space Plane, 
the OSP, and how that program relates to the space station. 
Some of our colleagues in the House recently sent a letter to 
Administrator O'Keefe urging him to defer the current program 
until the White House and Congress are able to complete a 
review of the Nation's space program. OSP was originally 
expected to cost about $4 billion, but NASA has stated they are 
prepared to spend up to $14 billion to complete the project by 
2008. However, it's difficult to decipher exactly what America 
will be getting from the OSP, and it's even more difficult to 
try to justify such a vehicle when the International Space 
Station is not yet complete.
    I'm afraid that letter is right, from my colleagues on the 
House side, we must ensure the money we are putting toward new 
space vehicles is going to result in furthering the Nation's 
space program.
    I've noted this morning's hearing--I don't have the chart 
here with me today, but we've previously, over the past decade, 
started five replacement programs of one type or another for 
the space shuttle, discontinued all five of them at a cost of 
$5 billion, and not much to show for it. I don't want to start 
another one and get in the middle and stop and waste another 
billion, two billion, or more dollars.
    Obviously, we have a lot to talk about. I'd like to welcome 
our witnesses. Before I introduce the witnesses, I'll go to my 
colleague from Florida for his opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Welcome. I would like, in the course of this hearing, to 
have some assurances that what happened over the course of the 
past decade, where the Space Station budget and the Space 
Shuttle budget were blended together under the human 
spaceflight budget, so that it became less transparent, so that 
money was moved around out of the Space Shuttle into the Space 
Station on some of the cost overruns--some assurance that that 
doesn't occur again. We need the separation so that Congress 
can fulfill its responsible role of oversight of the Executive 
Branch of government, and some of the tragic consequences that 
flowed therefrom. And there are not my words. This is the 
Gehman Commission's report.
    I'd also like, as the Chairman has indicated, to get you 
all to comment on the space plane and where are we going and 
how much is it going to cost, from just a crew return vehicle 
so we can get more people onboard, to a true follow-on, in the 
spirit of the Gehman Commission report, where you will launch 
humans to and from orbit in a vehicle that is designed to be 
less costly and more safe than the experiences of the space 
shuttle. We had an estimate when Mr. Readdy testified in front 
of this Committee back in September 2001, September 11, that I 
think the factor was something like one in 350, and we were 
moving to a figure of one in 500, or one in a thousand, as the 
ratio of catastrophe. Well, we know now that what it was, was 
two in 113. And so if the Gehman Commission report is being 
accepted by NASA as the Administrator has indicated, that the 
idea is to have a new space plane to get to and from orbit that 
is safer and use other means, perhaps including the space 
shuttle as the cargo means, and at some point maybe an 
automated space shuttle, is that what we're thinking as we look 
to servicing the station?
    And then, third, I would like to have discussed how does 
the space station fit in with a seamless timeline as we direct 
ourselves to the bold new vision ahead, which is going to Mars? 
What are we going to do with this that will not impede us 
striking out in that bold new venture? Now, we all know it's 
going to take a President to make this decision, and until a 
President does it and puts the juice behind it, it's not going 
to happen. But I don't want a future President, or this 
President, for that matter, to use the space station as an 
excuse that we're not going to go to Mars.
    Mars is a long time planning. This is a 20-year project. We 
had testimony this morning that said that it should be a 10-
year----
    Senator Brownback. Ten-year.
    Senator Nelson.--project. I think that's a little 
ambitious, but, nevertheless, we need to start, and we need to 
start tomorrow. And if it takes us 20 years, we need to start 
tomorrow.
    So I'd like some commentary on that and how does the space 
station fit in with all that.
    Senator Brownback. Thank you.
    We'll go to our panel. We welcome each of you here. First 
to testify will be Mr. William Readdy. He's the Associate 
Administrator for Spaceflight, National Aeronautics and Space 
Administration, NASA, and Mr. Readdy himself has flown aboard 
the Space Shuttle. Delighted to have you here. Mr. Allen Li is 
Director of Acquisition and Sourcing Management, U.S. GAO. 
Thank you very much for coming. Dr. Robert Park is Director of 
Information, American Physical Society, and delighted to have 
you here, Dr. Park. Dr. James Pawelczyk, Associate Professor of 
Physiology, Kinesiology, at Pennsylvania State University. 
Thank you very much for joining us. And Mr. Arthur Zygielbaum--
I hope I got that close--Director, National Center for 
Information Technology and Education, University of Nebraska.
    Gentlemen, thank you very much for joining us.
    Mr. Readdy, I look forward to your testimony.

                STATEMENT OF WILLIAM F. READDY,

            ASSOCIATE ADMINISTRATOR FOR SPACEFLIGHT,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION;

    ACCOMPANIED BY MARY KICZA, ASSOCIATE ADMINISTRATOR FOR 
                BIOLOGICAL AND PHYSICAL RESEARCH

    Mr. Readdy. Thank you, Mr. Chairman, Senator Nelson.
    I appreciate the opportunity to appear before you today to 
discuss the International Space Station and the impact the 
Columbia accident has had on ISS operations.
    I'm joined by my colleagues, behind me, Brian O'Connor, who 
is the Associate Administrator for Safety and Mission 
Assurance; Mary Kicza, Associate Administrator for Biological 
and Physical Research; and Dr. Richard Williams, who's the 
Chief Health and Medical Officer.
    Senator Brownback. Good. You might pull that microphone a 
little closer to you. It's not the best technology.
    Mr. Readdy. Without question, our near-term goals are to 
return the Space Shuttle safely to flight, to build, operate, 
and maintain the International Space Station, and reap the 
scientific harvest from that research.
    A couple of weeks ago, on a very cool Saturday in 
Kazakhstan, we watched Mike Foale and his crew mates lift off 
in the Baikonur Cosmodrone, and they're now onboard the 
International Space Station. This crew will be the crew that 
continues the fourth year of continuous crewed operations, and 
the fifth year overall, for International Space Station.
    Then, just Monday evening, Expedition 7 returned on target 
to their landing site in Kazakhstan. The landing went very, 
very smoothly, I can report to you, although we were prepared 
for all contingencies. We brought back the samples that we 
promised during the Flight Readiness Review.
    Ed Lu is in great shape. I talked to him just this morning, 
over in Star City, where he's in the rehabilitation facility 
undergoing medical tests and completing his debriefings.
    Interestingly enough, in terms of exploration, during their 
6-month mission they traveled 73 million miles. Well, the 
distance between the Earth and Mars right this minute is 56 
million. So clearly demonstrating long-duration spaceflight is 
necessary to anything we'll do.
    Twenty-six experiments were conducted, and Expedition 7 
included: materials and International Space Station 
experiments, which is an external payload to measure the 
impacts of long-duration space exposure; protein crystal 
growth; space soldering; miscible fluids in microgravity; hand-
posture analysis; educational payloads; fluid dynamics 
investigations; and obviously examination of the crew members 
themselves. And I could go on and on. Mary Kicza is prepared to 
go into much greater detail than I, and we've included more in 
our written statement.
    The collaborative endeavors are increasing as the ISS will 
come of age, and potential research is increasing when we get 
the shuttle back to flying again.
    There have been recent comments concerning dissenting views 
expressed prior to the launch of the Expedition 8 mission. In 
the aftermath of the Columbia tragedy, we have learned our 
process worked. There was open dissent, debate, and resolution 
at the lower levels. We put in place sample return and 
mitigation efforts in order to make sure that those concerns 
were addressed. The dissenting views were discussed in an open 
forum. The associated risk level was determined low and 
acceptable and, prior to atmospheric measurements, had 
indicated no deviation from normal. Interviews with the crews 
indicated that there was no environmental problem. Russian 
onboard monitoring systems indicated no deviations. So having 
heard all the concerns, mitigating actions planned, means for 
monitoring onboard, we made a balanced risk decision to launch 
the increment. We made our decision based on all these factors 
and in full agreement with the Flight Readiness Review Board to 
proceed.
    The Flight Readiness Review Board and the Stage Operations 
Review Board that precede it, accumulate a total of over a 
hundred signatures. I have to emphasize that the dissenting 
views were heard in the Life Sciences Level 3 Board and were 
addressed prior to our Level 1 Flight Readiness Review Board.
    The process worked. It was rigorous and diligent. Concerns 
were raised and addressed. Now that we know that there's 
obviously more of a spotlight on the agency in the aftermath, 
and we know that there's significant interest here in Congress, 
even though we've reviewed those, addressed them, we will 
obviously be more proactive in providing the information here 
on the Hill.
    And while we all recognize that space travel is not risk 
free, and, in fact, the Soyuz launch vehicle that Mike Foale 
and his crew mates launched on, was the 420th successful flight 
out of 430, which equates to 98 percent.
    The subsystem redundancies onboard International Space 
Station that have been fundamental to the design in the 
earliest phases have all combined to make a safe environment. 
It was always planned, though, to be maintained with the 
shuttle, with large flying replaceable units. But we have found 
ISS to be a highly reliable and maintainable platform.
    Interestingly, our partnership with the Russians, that was 
initiated almost exactly 10 years ago, has increased our 
reliability by having functional redundancy in various areas, 
including crew transportation, logistics, life support, and 
exercise equipment.
    Now, with respect to consumable commodities, our 
conservation efforts have been very successful. Water does 
still remain the most critical consumable, but we will continue 
our close management and periodic progress re-supply flights.
    NASA and its international partners continue to build, 
integrate, and prepare flight hardware according to the 
program's original schedules. Space station processing at the 
Kennedy facility continues. And if you look at what you have in 
front of you there in the schematic--and for the TV, there is a 
poster of it--what that shows is the hardware that is currently 
on orbit, and the crosshatched is the hardware that's at the 
Kennedy Space Center ready for integration.
    The International Space Station is already larger than a 
jumbo jet and, at year five, already has more volume than the 
Sky Lab ever had or than the Mir and is obviously more capable 
than Mir at its 15-year end of life.
    ISS assembly was 50 space walks so far. If you think about 
a jumbo jet final assembly, it takes months, in order to 
finally assembly them, and that's with parts that are made on 
this planet rather than assembled in orbit by space-walking 
astronauts.
    We look forward to the day when ISS is completed, allowed 
to demonstrate its research potential. In the meantime, all the 
international partners continue to collaborate on how to best 
support our near-term on-orbit operations until the shuttle 
returns to flight.
    While the Columbia Accident Investigation Board was 
conducting its investigation of the Columbia accident, the ISS 
program had already begun an intensive internal effort to 
examine its processes and risks, with the objective of 
identifying the existence of any risks that had already not 
been reduced to the lowest possible level and to make sure that 
we were proactive.
    As a result of the findings of the CAIB, some of those 
continuous improvement initiatives were already underway, but 
in the meantime we have released NASA's Implementation Plan for 
International Space Station Continuing Flight. And this is the 
continuing flight team, and it's led by Mr. Al Sofgi at our 
headquarters. The intent here is that that be a living 
document. We look forward to releasing it next week on the Web, 
publicly.
    In a letter to the President, Nobel laureate, Samuel Ting, 
Cabot professor of Physics at Massachusetts Institute of 
Technology, along with his distinguished colleagues, recently 
wrote a letter, ``The value and interest of human explorations 
of space for which space station is essential has been put 
forth with considerable clarity and power in the debates taking 
place since the Columbia disaster.'' He went on to recognize 
the value of the astronauts as researchers and their ability to 
repair, modify, or respond to unexpected developments. STS-107 
was a clear example of that.
    The ISS program is taking all necessary steps to be ready 
to resume ISS research, outfitting, and final assembly when the 
space shuttle fleet is certified safe to return to flight. 
While the necessary corrective actions are being taken, though, 
productive research is continuing on orbit, even with a crew of 
two, and we are safely exchanging crews aboard the Soyuz 
vehicles.
    International Space Station, though, cannot be considered 
only a platform for research, but also a demonstration of the 
potential for international cooperation, exploration, and 
discovery. We have 16 partner nations in International Space 
Station.
    Over in the great hall of the Library of Congress, there's 
a quote from Edward Young, ``Too low they build who build 
beneath the stars.'' We're the architects of the future, 
building a base for our children's exploration and discovery 
among those stars.
    There are those who advocate that NASA should have a goal 
for space travel by humans to other parts of the solar system. 
It must be stressed by us, and recognized at large, that the 
ISS is that gateway to exploration beyond low-Earth orbit. In 
our critical path review of challenges that must be resolved to 
ensure the long-term health and safety of crews in space for 
those long-duration missions, there were ten red items which 
cannot be avoided unless countermeasures are developed. These 
challenges must be overcome if we're to pursue extended 
missions beyond low-Earth orbit. Virtually all these challenges 
will require research from the experiments that can best be 
carried out on the International Space Station.
    Yesterday, we were at the Kennedy Space Center with the 
Columbia families to dedicate Space Mirror Memorial to the 
Columbia crew, and they were all of one voice when they said 
that we must continue to build, operate, and maintain the 
International Space Station in order to reap the scientific 
harvest of the seeds that their loved ones planted, the 
research aboard Columbia.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Readdy follows:]

   Prepared Statement of William F. Readdy, Associate Administrator, 
  Office of Space Fight, National Aeronautics and Space Administration
    Mr. Chairman and Members of the Committee, my colleagues Bryan 
O'Connor, Associate Administrator for Safety and Mission Assurance, 
Mary Kicza, Associate Administrator for Biological and Physical 
Research, Dr. Richard Williams, Chief Health and Medical Officer, and I 
appreciate the opportunity to appear before you today to discuss the 
status of the International Space Station (ISS) and the impact the 
Columbia accident has had on ISS operations.
    On February 1, 2003 we lost the crew of the Space Shuttle Columbia. 
These were my friends and colleagues. I, along with the entire NASA 
family, will work tirelessly to honor their memory. We are dedicated to 
improving our programs and our Agency, while we safely return the 
Shuttle to flight and maintain the ISS in orbit. We will continue the 
mission of human exploration and discovery, to which the crew of the 
Space Shuttle Columbia committed their lives, and continue to learn 
through this tragic experience, so that one day the risks of human 
space flight will be reduced to a level similar to conventional 
transportation vehicles.
    I also want to recognize the families of the Columbia crew for 
their strength and continued support of our historic endeavor. Their 
contribution to the mission has been the most dear and their fortitude 
is exemplary to all of us who will press onward in respect for their 
courage.
Current Status
    As a result of the Columbia accident on February 1, 2003, the Space 
Shuttle fleet has been temporarily grounded. The International 
Partnership has fully embraced the challenge of keeping the ISS crewed 
and supplied while the Space Shuttle Program works through and 
implements the needed changes. The Partners have met frequently at the 
technical and management levels to coordinate efforts toward 
maintaining a safe, functional research platform. These meetings have 
focused the resolve of an international community engaged in one of the 
most illustrious models of global cooperation for peaceful purposes.
    In late February, the ISS Partnership agreed to an interim 
operational plan that will allow crewed operations to continue. This 
plan called for a reduction of the crew size to two and for crew 
exchanges to be conducted on the previously scheduled semi-annual Soyuz 
flights. This reduction was required to keep adequate food and water 
reserves and live within the consumables that could be supplied by 
Progress vehicles. It also called for additional Progress vehicles over 
the 2003-2004 timeframe. In response, Russian Soyuz and Progress 
vehicles have succeeded in providing reliable crew and cargo access to 
and from the ISS to date. We remain confident these vehicles will 
continue to carry out their critical mission until the Space Shuttle 
Fleet returns to flight.
    On orbit, the ISS is demonstrating its capability to operate 
safely. The sub-system redundancies that have been fundamental to the 
design since its earliest phases, in combination with the orbital 
replacement unit (ORU) architecture, have consistently proven their 
worth. We have found the ISS to be a highly reliable and maintainable 
platform that is exceeding our originally conservative engineering 
projections. ORU failures are lower than first projected and backup 
sub-systems are reliably coming on line in response to need. Numerous 
specific examples are available to substantiate this experience. On 
occasion, we have experienced anomalies with lower criticality level 
components; however, the Progress resupply missions have enabled 
replacement in such instances.
    With respect to consumable commodities, our conservation efforts 
have been very successful. Original conservative projections indicated 
water to be our most critical consumable. This condition arose because 
the visiting Space Shuttles previously supplied surplus water to the 
ISS as a by-product of their on-board fuel cell electrolysis process. 
Water remains our most critical consumable; however, close management 
and periodic Progress re-supply missions have alleviated the severity 
of this challenge. Our current estimates for future water consumption 
are now based on actual operating experience since the Columbia 
accident. We are closely monitoring this key provision and plan to 
adjust our Progress re-supply mission requirements in CY 2004 to 
reflect the improved conditions. All experience clearly indicates the 
ISS is operating in a reliably stable and consistently safe mode.
    On October 20, the Expedition 8 crew, U.S. Commander Michael Foale 
and Russian Flight Engineer Alexander Kaleri, arrived at their new home 
orbiting at about 230 miles above the Earth. They were joined by 
European Space Agency taxi astronaut Pedro Duque, who spent 8 days 
aboard the Station engaged in a variety of research tasks. The 
Expedition 7 crew, Commander Yuri Malenchenko and U.S. Science Officer 
Ed Lu, along with Pedro Duque, were returned safely to Earth on October 
28. Lu and Malenchenko traveled nearly 73 million miles during their 
six-month stay aboard the ISS, 22 million miles further than the 
distance between the Earth and Mars.
    NASA and its International Partners continue to build, integrate, 
and prepare flight hardware according to the Program's original 
schedules. This past Summer, NASA's European-built Node 2 and the 
Japanese Experiment Module (JEM) arrived for processing at Kennedy 
Space Center (KSC) and by Fall, these important elements had 
successfully completed the third stage of Multiple Element Integration 
Testing. With these arrivals, the Space Station Processing Facility 
(SSPF) at Kennedy Space Center is once again packed to capacity with 
ISS flight hardware, much the same as it was during the 18-month gap 
that occurred following ISS First Element Launch (FEL). Today there are 
more than 80,000 pounds of ISS flight hardware waiting for Space 
Shuttle integration and an additional 102,000 pounds in preparation for 
integration at the SSPF. The ISS Program will once again be at an 
extraordinarily high state of readiness to resume assembly when the 
Space Shuttle fleet resumes service.
    With these arrivals, we look forward to the day when the ISS is 
completed and allowed to demonstrate its research potential. In the 
meantime, all of the International Partners continue to collaborate on 
how to best support near-term ISS on-orbit operations until the Space 
Shuttle returns to flight. The first two Shuttle flights, STS-114, LF-1 
and STS-121, ULF-1.1, will carry out key activities related to Shuttle 
return to flight, as well as support ISS logistics and utilization. 
Once we have completed these two missions and fully implemented any 
necessary changes to ensure risks have been minimized to the lowest 
possible level, assembly will resume with Shuttle flight 12A.
    The Space Shuttle fleet is essential for completing the 
construction phase of the ISS. Nonetheless, we are assessing long-term 
options for alternate crew and cargo access to the ISS.
Activities in Response to the Columbia Accident Investigation Board
    The Columbia Accident Investigation Board (CAIB) addressed the 
causes of the Columbia accident and has thoroughly documented its 
findings. The Space Shuttle Return to Flight Planning Team is now 
focused on the necessary changes to the Space Shuttle Program based on 
the CAIB's comprehensive report and our own efforts to ``raise the 
bar.'' The CAIB report also contains areas applicable to NASA 
activities broader than the Shuttle Program. Recognizing this, the ISS 
Continuing Flight Team (CFT) was chartered, immediately following 
release of the report, to review all CAIB recommendations, 
observations, and findings for applicability to the ISS Program. This 
team will ensure that all necessary steps are taken to apply the 
lessons learned from the Columbia accident to the ongoing operation of 
the ISS. Representatives from all NASA field centers supporting human 
space flight, as well the astronaut and safety assurance offices, are 
members of the team. The ISS Program Office will also serve as the 
liaison to the International Partners, in order to draw all parties 
engaged in ISS operations into the effort.
    While the CAIB was conducting its investigation of the Columbia 
accident, the ISS Program had already begun an intensive effort to 
examine its processes and risks with the objective of identifying the 
existence of any risk that has not already been reduced to the lowest 
possible level and ensuring focused management attention on the 
residual risks that cannot be eliminated. As the findings of the CAIB 
emerged, they were continuously assessed by the ISS Program for 
applicability. Some of these continuous improvement initiatives already 
underway since the Columbia accident were consistent with CAIB 
findings, while some were a direct result of the experience the ISS 
Program has gained from three years of crewed operations. The first 
release of the CFT Implementation Plan documents the status of 
responses to the CAIB Recommendations, as well that of the ISS 
Continuous Improvement initiatives.
Flight Readiness for ISS Expedition 8
    A Stage Operations Readiness Review (SORR) routinely precedes all 
ISS Flight Readiness Reviews (FRRs). During the increment 8 SORR a wide 
range of cost, schedule and technical elements were examined in depth. 
Included among these was the status of the ISS on board environmental 
monitoring system, which provides very high accuracy information on 
atmospheric composition and presence of trace elements. The current 
system is not operating at full capacity and the need to replace it on 
an upcoming Progress re-supply mission was discussed. This requirement 
was formally accepted, without issue, at the subsequent FRR. The 
associated risk level was determined acceptable, since prior 
atmospheric measurements indicated no deviations from normal; Russian 
on-board monitoring systems indicated no deviations; and the crew was 
not experiencing any indication of changes in the cabin environment. In 
addition, the status of crew health countermeasures was reviewed at the 
SORR. These countermeasures include the use of an on board treadmill 
and associated resistive exercise devices. Each of these devices was 
operating at various degrees of reduced capacity and needed to be 
repaired, upgraded or replaced. Evaluations weighing potential 
equipment maintenance actions against upcoming replacement 
opportunities were underway.
    At the October 2 Expedition 8 FRR, each subsystem was reviewed for 
safety and performance capability. During this free and open review, 
individuals with dissenting opinions were encouraged to come forward 
with all information pertinent to the decision process. Those who did 
were commended for their diligence and participation. Their positions 
were taken very seriously and analyzed in the total context of the 
decision by experienced subject area experts. Based on the review 
process, the FRR culminated in a Certification of Flight Readiness, 
which validated that the Expedition 8 was ready for launch and the 
Increment. In addition to the multilateral FRR process, a special task 
force of the NASA Advisory Council independently reviewed the safety 
and operational readiness of the ISS, the flight readiness of the 
Expedition 8 crew, and the Russian flight control team's preparedness 
to accomplish the upcoming mission. This U.S.-Russian Joint Commission, 
chaired by Lieutenant General T.P. Stafford and Academician N.A. 
Anfimov, found the crew to be fully trained and medically certified. 
They also reported the ISS to be safe and operationally ready to 
support crew arrival.
    Subsequent to these comprehensive reviews by subject area experts, 
the ISS Program conducted yet another full program review in the final 
days before 7S Soyuz launch. The purpose of this additional review was 
to check the progress of actions underway and ensure all possible steps 
were in motion to guarantee a successful and hazard-free mission. As a 
result of these multiple reviews, we are highly confident that 
mitigation plans are proceeding as planned to reduce and closely manage 
the remaining risks. The entire ISS team has participated in these open 
communications forums and all are in agreement that the most judicious 
and effective path to maintaining crew safety and spacecraft 
survivability is the path we are currently pursuing.
ISS Research Progress
    The ISS Program is taking advantage of every opportunity to 
manifest research, supplies, and experiments on the Russian Soyuz and 
Progress vehicles. The opportunities have allowed investigations to 
continue in bioastronautics and physical sciences. We have collaborated 
with our International Partners to share hardware, in order to optimize 
the overall research output on the ISS under the constrained conditions 
that resulted from the grounding of the Space Shuttle fleet. Despite 
these conditions, the research program continues to progress. As of the 
end of August 2003, approximately 1,551 hours of combined crew time 
have been dedicated to research and approximately 74 investigations 
have been initiated or completed. During Increment 7, the ISS crew 
averaged 10 hours per week performing research tasks.
    Today, undergraduate and graduate students and academic and 
industrial scientists at U.S. research institutions around the country 
are at work developing approximately 1,000 projects in support of the 
ISS research program. These students are the U.S. scientists and 
technologists of the future working under the tutelage of experienced 
scientists with a vision for the future. Our objective is to reach out 
still further, through avenues like a new research institute that will 
one day manage an investigator cadre for the ISS similar to that which 
Space Telescope Science Institute currently does for the Hubble. This 
planned development will open direct participation in the space program 
to more Americans than ever and transform young people's fascination 
with space into longstanding careers in innovative science and 
technology.
    The International Space Station is not only a platform for 
research, but also a demonstration of the potential for international 
cooperation, exploration and discovery. Indicative of this are 
experiments currently underway in the Granada Crystallization Facility. 
This facility was built in Europe, has a principal investigator funded 
by Japan, and is housed under temperature-controlled conditions in the 
Commercial Generic Bioprocessing Apparatus, which is provided by a U.S. 
commercial research partnership. Such collaborative endeavors are 
increasing as the ISS comes of age and the research potential is 
revealed with each stage of growing capability.
    Projects like Peter Cavanaugh's experiments on astronaut bone loss 
in space, and the effectiveness of exercise in reducing the tendency to 
lose mass from bones that on Earth bear our weight, but in space have 
very little to do. Professor Cavanaugh is the chair of the Biomedical 
Engineering Department at the Cleveland Clinic. His research is helping 
medical science understand the mechanisms that lead to the loss of bone 
mass and strength. In his case the direct cause is the weightless 
environment, but the knowledge this research will produce may 
contribute to the development of more effective therapies for bone 
degeneration faced by the 44 million of Americans who, according to the 
National Osteoporosis Foundation, have either low bone mass or 
osteoporosis.
    Industry-sponsored experiments are also being conducted that might 
have an impact on bone loss treatments, plant growth, pharmaceutical 
production, and petroleum refining. Some of the first ISS experiments 
are ongoing and some have already returned to Earth. Detailed post-
flight analysis continues, while the future continues to hold promise 
for growth in applications as the ISS capability approaches full 
fruition.
    Recent fluid physics experiments on the Shuttle and on the ISS 
looked at colloidal systems, small particles that are suspended in 
liquids. Professor Alice Gast, the vice president for Research at MIT 
is doing research on magnetic colloids and Professor David Weitz of 
Harvard University and Professor William Russell, Dean of the graduate 
school at Princeton University are collaborating on colloid research 
looking at fundamental structures in these types of materials. Each of 
these experiments has yielded unexpected results that could never have 
been observed on earth. According to Professor Weitz, the ISS research 
led to his group's work that was published very recently in Science:

        The [colloidisome] structures we make here are inspired very 
        much by what we learn from our ISS work, and we are following 
        this up to investigate better drug encapsulation and delivery 
        mechanisms. Some offshoots of this work are also summarized in 
        two of our other papers about making delivery structures from 
        colloidal particles.

    Other practical uses of colloids in the long term include faster 
computers and communication.
    Equally as interesting, Dr. Rafat Ansari of NASA, who worked with 
these experiments, found an unusual use for one of its instruments. 
When his father developed cataracts, which are assemblies of small 
particles in the eye, Dr. Ansari realized that the instrument being 
developed as part of the colloids experiment might be able to detect 
these cataracts--possibly earlier than ever before. The device is now 
in clinical trials with a National Institute of Health/NASA 
collaboration to assess the effectiveness of new, non-surgical 
therapies for early stages of cataract development. Cataracts affect 50 
million people annually. The NIH highlighted this collaborative NIH/
NASA research to Congress in 2001 as a key technology for them. The 
instrument is also being adapted as a pain-free way to identify other 
eye diseases, diabetes, and possibly even Alzheimer's. Perhaps most 
poignant is the fact that Dr. Ansari was inspired to pursue scientific 
research by a single moment in his life--when, as a small boy in 
Pakistan, he saw people walk on the moon. It shows once more what we 
have said all along: human space flight produces and inspires more than 
just high quality science.
    The Research Maximization And Prioritization (ReMAP) Task Force 
established priorities and goals for NASA's Office of Biological and 
Physical Research (OBPR) and for ISS research across disciplines. The 
findings and recommendations of its report provide a framework for 
prioritizing a productive research program for OBPR and for the ISS. 
The committee was unanimous in the view that the ISS is unprecedented 
as a laboratory and is the only available platform for human tended 
research on long-duration effects of microgravity. In several areas of 
biological and physical research, solutions to important questions 
require microgravity. ISS provides a unique environment for attacking 
these problems ``as only NASA can.'' We have testimonials to this, not 
only from independent ReMAP members, but also from the National 
Research Council, various technical societies, and Nobel Laureates.
    In fact, Nobel Laureate, Dr. Samuel C.C. Ting, Cabot professor of 
Physics at the Massachusetts Institute of Technology, along with his 
distinguished colleagues, recently captured the essence of the national 
policy challenge in a letter to President George Bush:

        The value and interest of the human explorations of space, for 
        which the space station is essential, has been put forth with 
        considerable clarity and power in the debates taking place 
        since the Columbia disaster; however, we believe that a narrow 
        view has dominated the debates about the scientific importance 
        of the ISS. The debate has focused on the earliest work without 
        properly considering the great potential and crucial importance 
        of the Space Station for future science.
Conclusion
    The ISS program is taking all steps necessary to be ready to resume 
ISS research outfitting and final assembly when the Space Shuttle Fleet 
is certified to safely return to flight. While the necessary corrective 
actions are being taken, productive research is continuing on orbit and 
we are safely exchanging crews for continued operations.
    I was inspired by a quote inscribed on the wall of the Great Hall 
in the Library of Congress, from Edward Young's Night Thoughts. ``Too 
low they build, who build beneath the stars.'' We are truly the 
architects of our future, building a base for our children's 
exploration and discovery among the stars. There are those who advocate 
NASA should have a goal for space travel by humans to other parts of 
the solar system. It must be stressed by us, and recognized at large, 
that the ISS is the gateway to exploration beyond low-Earth orbit. 
NASA's current draft of a Critical Path Roadmap of challenges addresses 
the following risks associated with long-term crew health and safety in 
space: the effects of radiation, physiological changes, medical 
practice problems, and behavior and performance problems. Reducing 
these risks will be accomplished by identifying and developing 
countermeasures where applicable. Virtually all of these challenges 
will require research from experiments that can best be carried out on 
the ISS.
    I'd like to thank Mr. Li, for his General Accounting Office 
assessment of the ISS, and Mr. Zygielbaum, for his work with the 
Aerospace Safety Advisory Panel, for providing their respective 
assessments of NASA's programs. I would also like to thank Dr. 
Pawelczyk and Dr. Park for their perspectives on the ISS research.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. My colleagues and I are 
prepared to address your questions.

    Senator Brownback. Thank you, Mr. Readdy.
    Mr. Li?

                STATEMENT OF ALLEN LI, DIRECTOR,

              ACQUISITION AND SOURCING MANAGEMENT,

                 U.S. GENERAL ACCOUNTING OFFICE

    Mr. Li. Chairman Brownback, Senator Nelson, and Members of 
the Subcommittee, good afternoon. With me today are James Beard 
and Rick Cederholm from my Huntsville team.
    In the past 8 months, attention has mostly centered, and 
deservedly so, on the cause of the Columbia accident and the 
corrective steps NASA will take. Less prominent has been the 
impact on the space station and the cultural changes NASA is 
considering. That is why we are pleased that you have asked us 
today to focus on, one, the state of the space station brought 
on by the grounding of the shuttle, and, two, our views on how 
Congress can assess NASA's cultural changes to improve safety.
    As requested, I will summarize my prepared statement.
    First, the challenges facing the space station. Mr. 
Chairman, simply put, the grounding of the shuttle has placed 
the space station in a survival mode. The impact of the 
grounding of the shuttle is evident in five areas.
    One, NASA cannot resolve known safety concerns onboard the 
station while the shuttle fleet is grounded. For example, NASA 
has had to delay plans to fly additional shielding to protect 
the Russian service module from space debris, a risk that 
increases each year shielding is not installed.
    Two, assembly is at a standstill. Prior to the Columbia 
accident, NASA had planned to assemble the core complete 
configuration of the station by early 2004. Assuming a return 
to flight around fall of 2004, core complete will not occur 
before early 2006.
    Three, research is limited. Outfitting of U.S. research 
facility racks is halted. Currently, seven of the 20 planned 
racks are installed. With the fleet grounded, three major 
facilities could not be launched in March of this year as 
planned. And because new and additional hardware cannot be 
transported, NASA has had to rely on existing science 
facilities, facilities that have already experienced some 
failures. For example, the freezers onboard the station have 
failed several times. A larger cold temperature facility had 
been planned for launch in March 2003.
    Four, the amount of science materials that can be 
transported to and from the space station is limited. According 
to NASA officials, they plan to send about 93 kilograms of 
science material to the station on the next Russian Progress 
flight scheduled for January 2004. However, returning samples 
will be delayed until the shuttle returns to flight.
    Five, the station's total cost will be higher. To date, 
NASA has not fully estimated the potential increased cost and 
future budget impact due to the grounding of the shuttle. NASA 
maintains that an assessment of total impact cannot be made 
prior to 2005, when the Fiscal Year 2006 budget request is 
submitted. While the total cost is presently unknown, there are 
some areas where additional cost is likely. A significant 
increase is expected because of the 2-year delay in completing 
assembly. In addition, partner funding is uncertain. This may 
result in NASA paying a larger share of certain program costs 
to reflect additional partner contributions necessitated by the 
grounding of the shuttle.
    Turning now to our second topic, assessing NASA's cultural 
changes to improve safety. As the Subcommittee recalls, the 
Columbia Accident Investigation Board found that NASA's history 
and culture resulted in organizational practices that were 
detrimental to shuttle safety. The challenge facing NASA in 
addressing needed changes will be monumental.
    In that regard, we suggest the use of a framework that is 
graphically depicted in our prepared statement. The framework 
has four interrelated anchors, namely leadership, human 
capital, program performance, and review and monitoring. Each 
of these four anchors has crucial attributes that, put 
together, help characterize NASA's organization and culture.
    For example, the leadership anchor encompasses the agency's 
core values and top management's expectations, such as the 
importance of character, integrity, and support of safety 
measures.
    Major facets of the human capital anchor include hiring 
skilled staff, understanding skilled efficiencies, and 
establishing and maintaining needed skills.
    The program performance anchor includes results achieved, 
oversight of contractors, and infrastructure maintenance. In 
essence, this is how NASA carries out what it does. But program 
performance also requires sound financial management to provide 
decisionmakers with accurate information with which to make 
tradeoffs and long-term investments.
    The review and monitoring anchor reflects oversight and 
reinforcement that should be a shared responsibility between 
program officials, associate administrators, the NASA 
Administrator, and independent groups.
    Mr. Chairman, we believe this framework can be useful in 
assessing NASA's planned organizational and cultural changes by 
matching key areas in which changes are envisioned and 
identifying those that are not addressed.
    This concludes my statement. I will be happy to answer any 
questions at the end of the panel.
    [The prepared statement of Mr. Li follows:]

                             GAO Highlights
  NASA--Shuttle Fleet's Safe Return to Flight Is Key to Space Station 
                                Progress
Why GAO Did This Study
    Since its inception, the International Space Station has 
experienced numerous problems that have resulted in significant cost 
growth and assembly schedule slippages. Following the Columbia accident 
and the subsequent grounding of the shuttle fleet in February 2003, 
concerns about the future of the space station escalated, as the fleet 
has been key to the station's assembly and operations.
    In August 2003, the Columbia Accident Investigation Board drew a 
causal link between aggressive space station goals--supported by the 
National Aeronautics and Space Administration's (NASA) current 
culture--and the accident. Specifically, the Board reported that, in 
addition to technical failures, Columbia's safety was compromised in 
part by internal pressures to meet an ambitious launch schedule to 
achieve certain space station milestones.
    This testimony discusses the implications of the shuttle fleet's 
grounding on the space station's schedule and cost, and on the 
program's partner funding and agreements--findings we reported on in 
September 2003. The testimony also proposes a framework for providing 
NASA and the Congress with a means to bring about and assess needed 
cultural changes across the agency.
What GAO Found
    Since the grounding of the shuttle fleet last February, the space 
station has been in a survival mode. Due to the limited payload 
capacity of the Russian launch vehicles--which the program must now 
rely on to transport crew and supplies to and from the station--on-
orbit assembly is at a standstill and on-board research has been 
limited. Moreover, certain safety concerns on board the station cannot 
be corrected until the shuttle fleet returns to flight. For example, 
NASA has had to delay plans to fly additional shielding to protect the 
on-orbit Russian Service Module from space debris--a risk that 
increases each year the shielding is not installed.
    To date, NASA has not fully estimated the increased costs and 
future budget impact incurred due to the grounding of the space shuttle 
fleet. However, it projects that additional costs of maintaining the 
space station while the shuttle fleet is grounded will reach almost 
$100 million for Fiscal Years 2003 and 2004. It has also identified a 
number of factors that will affect costs--including the need to extend 
contracts to complete development and assembly of the station. Delays 
in completing the assembly of the station--which will be at least 2 
years--are likely to incur significant additional program costs. At the 
same time, partner funding is uncertain, which may result in NASA 
paying a larger share of certain program costs.
    Although the full impact of the shuttle fleet's grounding on the 
space station is still unknown, it is clear that the station's future 
is dependent on the shuttle fleet's return to flight. NASA must 
carefully weigh this future against the risks inherent in its current 
culture. As we reported early this year, NASA's organization and 
culture has repeatedly undermined the agency's ability to achieve its 
mission. The Columbia Accident Investigation Board similarly found that 
NASA's history and culture have been detrimental to the shuttle fleet's 
safety and that needed improvements at NASA go beyond technical 
enhancements and procedural modifications. The cultural change required 
for NASA to consider the numerous technical and administrative 
recommendations made by the Board could be the agency's greatest 
challenge to date.
    In an effort to help NASA as it undergoes this change--and the 
Congress as it assesses NASA's future corrective actions--we have 
provided a framework for establishing appropriate operating principles 
and values and program direction, securing and maintaining a sufficient 
and skilled workforce, establishing proper performance targets, and 
ensuring adequate monitoring.
                                 ______
                                 
  Prepared Statement of Allen Li, Director, Acquisition and Sourcing 
          Management, United States General Accounting Office
    Mr. Chairman and Members of the Subcommittee:

    We are pleased to be here today to discuss the challenges facing 
the International Space Station in the wake of the Columbia accident. 
The grounding of the shuttle fleet this past February escalated 
concerns about the future of the space station--which, since its 
inception, has experienced numerous problems that have resulted in 
significant cost growth and assembly schedule slippages. The shuttle 
fleet has been key to the station's assembly and operations, and 
without it, the program must rely on Russian launch vehicles to 
transport crew and supplies to and from the station. As requested, my 
testimony today will discuss the implications of the shuttle fleet's 
grounding on the space station's schedule and cost and on the program's 
partner funding and agreements--findings we reported on to the full 
Committee in September 2003.\1\
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Space Station: Impact of the 
Grounding of the Shuttle Fleet, GAO-03-1107 (Washington, D.C.: Sept.12, 
2003).
---------------------------------------------------------------------------
    You asked how the Congress can assess the cultural changes that the 
National Aeronautics and Space Administration (NASA) is considering as 
the agency proceeds with its efforts to safely return the shuttle fleet 
to flight. As you know, the Columbia Accident Investigation Board 
reported in August 2003 that in addition to technical failures, 
Columbia's safety was compromised in part by the shuttle program's 
fluctuating priorities and arbitrary schedule pressures to achieve 
certain space station milestones.\2\
---------------------------------------------------------------------------
    \2\ Columbia Accident Investigation Board, Report Volume 1 
(Washington, D.C.: Aug. 2003).
---------------------------------------------------------------------------
    The Board characterized NASA's emphasis on maintaining the launch 
schedule to support construction of the station as a ``line in the 
sand'' and found evidence that structural inspection requirements for 
the shuttle were reduced and other requirements were deferred in order 
to meet an ambitious schedule. NASA's recent revision to its return to 
flight plan recognizes that to ensure safety in all its programs, a 
cultural change is needed across the agency. Today, I am proposing a 
framework intended to provide NASA and the Congress with a means to 
assess cultural change in the context of NASA's overall mission.
    In summary, the grounding of the shuttle fleet last February has 
basically put the space station in a survival mode. Due to the limited 
payload capacity of the Russian launch vehicles, on-orbit assembly is 
at a standstill and on-board research has been limited. Moreover, 
certain safety concerns on board the station cannot be corrected until 
the shuttle fleet returns to flight. NASA estimates that additional 
costs of maintaining the space station while the shuttle fleet is 
grounded will reach almost $100 million for Fiscal Years 2003 and 2004. 
However, significant additional program costs are likely to be incurred 
because completing assembly of the station will be delayed by at least 
2 years. At the same time, partner funding is uncertain--which may 
result in NASA paying a larger share of certain program costs--and 
partner agreement on the final station configuration has been delayed 
by approximately one year.
    While the space station's future is clearly dependent on the 
shuttle fleet's return to flight, NASA must carefully weigh this future 
against the risks inherent in its current culture. As we reported in 
January 2003, NASA's management challenges and risks reflect a deeper 
need for broad cultural change to eliminate organizational stovepipes 
and hierarchy, which have repeatedly undermined the agency's ability to 
achieve its mission.\3\ The Columbia Accident Investigation Board 
similarly found in its August 2003 report that NASA's history and 
culture resulted in organizational practices that have been detrimental 
to the shuttle fleet's safety. The cultural sea change required for 
NASA to consider the numerous technical and administrative 
recommendations made by the Board could be the agency's greatest 
challenge to date. In an effort to help NASA as it undergoes a cultural 
change--and the Congress as it assesses NASA's future corrective 
actions--we have provided a framework for establishing appropriate 
operating principles and values and program direction, securing and 
maintaining a sufficient and skilled workforce, establishing proper 
performance targets, and ensuring adequate monitoring.
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, Major Management Challenges and 
Program Risks: National Aeronautics and Space Administration, GAO-03-
114 (Washington, D.C.: Jan. 2003).
---------------------------------------------------------------------------
Background
    In 1998, NASA and its international partners--Canada, Europe, 
Japan, and Russia--began on-orbit assembly of the International Space 
Station, envisioned as a permanently orbiting laboratory for conducting 
materials and life sciences research and earth observations under 
nearly weightless conditions. The International Space Station program 
has three key goals: (1) maintain a permanent human presence in space, 
(2) conduct world-class research in space, and (3) enhance 
international cooperation and U.S. leadership through international 
development and operations of the space station. Each of the partners 
is to provide hardware and crew, and each is expected to share 
operating costs and use of the station.\4\
---------------------------------------------------------------------------
    \4\ In 1996, NASA and the Russian Aviation and Space Agency signed 
a ``balance protocol'' listing the services that each side would 
provide to the other during assembly and operations.
---------------------------------------------------------------------------
    Since October 2000, the space station has been permanently occupied 
by two or three crewmembers, who maintain and operate the station and 
conduct hands-on scientific research. The space station is composed of 
numerous modules, including solar arrays for generating electricity, 
remote manipulator systems, and research facilities. The station is 
being designed as a laboratory in space for conducting experiments in 
near-zero gravity. Life sciences research on how humans adapt to long 
durations in space, biomedical research, and materials-processing 
research on new materials or processes are under way or planned. In 
addition, the station will be used for various earth science and 
observation activities. Figure 1 shows the International Space Station 
on orbit.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: NASA.

    Since Fiscal Year 1985, the Congress has appropriated a total of 
about $32 billion for the program. When the station's current design 
was approved in 1993, NASA estimated that its cost would be $17.4 
billion.\5\ By 1998, that estimate had increased to $26.4 billion. In 
January 2001, NASA announced that an additional $4 billion in funding 
over a 5-year period would be required to complete the station's 
assembly and sustain its operations. By May 2001, that estimated cost 
growth increased to $4.8 billion. In an effort to control space station 
costs, the administration announced in its February 2001 Budget 
Blueprint that it would cancel or defer some hardware and limit 
construction of the space station at a stage the administration calls 
``core complete.''
---------------------------------------------------------------------------
    \5\ All amounts are stated in current-year dollars.
---------------------------------------------------------------------------
    In November 2001, the International Space Station Management and 
Cost Evaluation Task Force--appointed by the NASA Administrator--made a 
number of recommendations to get costs under control. NASA implemented 
most of the recommendations, and the task force reported in December 
2002 that significant progress had been made in nearly all aspects of 
the program, including establishing a new management structure and 
strategy, program planning and performance monitoring processes, and 
metrics. NASA was postured to see results of this progress and to 
verify the sufficiency of its Fiscal Year 2003 budget to provide for 
the core complete version of the station when the Columbia accident 
occurred.
Grounding of the Shuttle Fleet Will Result in Additional Schedule 
        Delays and Cost
    With the shuttle fleet grounded, NASA is heavily dependent on its 
international partners--especially Russia--for operations and logistics 
support for the space station. However, due to the limited payload 
capacity of the Russian space vehicles, on-orbit assembly has been 
halted. The program's priority has shifted from station construction 
and research to maintenance and safety, but these areas have also 
presented significant challenges and could further delay assembly of 
the core complete configuration. While NASA maintains that its Fiscal 
Year 2004 budget will remain unchanged, the schedule delays that have 
resulted from the grounding of the shuttle fleet will come at a cost.
Program's Priority Has Shifted From Station Construction and Research 
        to 
        Maintenance and Safety
    The space shuttle fleet has been the primary means to launch key 
hardware to the station because of its larger payload capacity. With 
the shuttle fleet grounded, current space station operations are solely 
dependent on the Russian Soyuz and Progress vehicles. Because the 
payload capacity of the Soyuz and Progress vehicles are significantly 
less than that of the U.S. shuttle fleet,\6\ operations are generally 
limited to rotating crew and transporting food, potable water,\7\ and 
other items to the station. The Russian vehicles are also used for 
logistics support.
---------------------------------------------------------------------------
    \6\ At about 36,000 pounds, the shuttle's payload capacity is 
roughly 7 times that of Russia's Progress vehicle and almost 35 times 
the payload capacity of its Soyuz vehicle.
    \7\ Potable water is a constraint to sustaining station operations. 
For example, crewmembers currently have a limit of two liters of water 
per day per crewmember.
---------------------------------------------------------------------------
    On-orbit assembly of the station has effectively ceased. Prior to 
the Columbia accident, NASA had planned to assemble the core complete 
configuration of the station by February 2004. NASA officials estimate 
that assembly delays will be at least a ``month for month'' slip from 
the previous schedule, depending on the frequency of flights when the 
shuttles resume operations. Assuming a return to flight around fall 
2004, the core complete configuration would not be assembled before 
early 2006.
    While the space station crew's primary responsibility is to perform 
routine maintenance, the two crewmembers on board will conduct some 
research, according to an interim space station research plan developed 
by NASA. However, due to the grounding of the shuttle fleet and the 
station's reliance on the Russian vehicles, this research will be 
curtailed. For example:

  <bullet> Outfitting of U.S. research facilities halted: Currently, 7 
        of the 20 planned research facilities are on orbit. With the 
        fleet grounded, three major research facilities--which, 
        according to NASA, complete the outfitting of the U.S. 
        laboratory--could not be launched in March of this year, as 
        planned.\8\ At this time, it remains unknown when the full 
        configuration of the 20 research facilities will be on board 
        the station.
---------------------------------------------------------------------------
    \8\ The research facilities that were packed in a logistics module 
awaiting launch had to be removed from the flight module and serviced.

  <bullet> Existing hardware failures: Because new and additional 
        hardware cannot be transported, NASA has to rely more heavily 
        on existing on-orbit science facilities--facilities that have 
        already experienced some failures. For example, the 
        refrigerator-freezers on board the station, which serve as the 
        main cold storage units, have failed several times, according 
        to NASA officials. A larger cold temperature facility was one 
        of three facilities that had been planned for launch in March 
---------------------------------------------------------------------------
        2003.

  <bullet> Limited science material: Currently, there are very limited 
        allocations for science materials to be transported to or from 
        the space station by the Russian Soyuz and Progress 
        vehicles.\9\ According to NASA officials, they plan to send 
        about 93 kilograms (just over 200 pounds) of science material 
        to the station on the next Progress vehicle scheduled for 
        launch in January 2004. However, returning samples from 
        investigations will be delayed until the shuttle fleet returns 
        to flight because of the Soyuz's limited storage capacity.
---------------------------------------------------------------------------
    \9\ Currently, science material is flown on a space and weight 
available basis. For example, if food or other life support items were 
not depleted between flights, science material might be transported.

    NASA also cannot resolve known safety concerns on board the station 
while the shuttle fleet is grounded. For example, NASA has had to delay 
plans to fly additional shielding to protect the on-orbit Russian 
Service Module from space debris--a risk that increases each year the 
shielding is not installed. NASA is studying alternatives for launching 
and installing the debris protection panels earlier than currently 
planned. In addition, a failed on-orbit gyro--one of four that 
maintains the station's orbital stability and control--remains on board 
because the shuttle flight that was to carry a replacement gyro to the 
station and return the failed unit for detailed analysis was planned 
for March of this year--1 month after the grounding of the shuttle 
fleet.
Cost Implications Have Yet to Be Determined, but Increases Are Likely
    To date, NASA has not fully estimated the potential increased costs 
and future budget impact incurred due to the grounding of the space 
shuttle fleet. However, it has identified a number of factors that will 
likely result in increased costs--including the need to extend 
contracts to complete development and assembly of the station.
    NASA has requested $1.71 billion for Fiscal Year 2004 for the space 
station. The request is based, in part, on near completion of the 
hardware development for the U.S. core configuration and the transition 
to on-orbit operations. Soon after the Columbia accident, NASA stated 
that it would maintain budget requests at current levels until the 
shuttle returns to flight. NASA estimates the impact to the station 
program from the Columbia accident to be $22 million in Fiscal Year 
2003 and up to $72 million in Fiscal Year 2004. NASA maintains that an 
assessment of total impact cannot be accomplished prior to the Fiscal 
Year 2006 budget submission in February 2005.
    However, the considerable uncertainty about when the shuttle will 
return to flight, what the payload capability will be, and how many 
flights can be achieved each year greatly impact the total cost to the 
station program. NASA anticipates that by keeping a crew on board the 
station while the shuttle fleet is grounded and the continued 
development of space station hardware will incur additional costs. For 
example, NASA officials told us there are approximately 80,000 pounds 
of hardware at Kennedy Space Station ready for integration to the space 
station and another 106,000 pounds there being processed.
Uncertainty of the Shuttle's Return-to-Flight Date Delays Partner 
        Agreements
    While long-term plans are not well defined at this time, 
alternative funding may be needed to sustain the station--let alone 
achieve the station's intended goals. International agreements 
governing the space station partnership specify that the space agencies 
of the United States, Canada, Europe, and Japan are responsible for 
funding the operations and maintenance of the elements that each 
contributes, the research activities each conducts, and a share of 
common operating costs. Under current planning, NASA will fund the 
entire cost of common supplies and ground operations, then be 
reimbursed by the other partners for their shares.
    Depending on contributions made by the partners while the shuttle 
fleet is grounded, the share that each partner contributes to the 
common operations costs may have to be adjusted and could result in 
NASA's paying a larger share of those costs. For example, the European 
Automated Transfer Vehicle is scheduled to begin flying in September 
2004. If that vehicle takes on a larger role in supporting the station 
than currently planned, the European share of common operations costs 
could be reduced with the other partners paying more.
    At the same time, NASA and its partners must develop a plan for 
assembling the partners' modules and reaching agreement on the final 
station configuration. Prior to the Columbia accident, options for the 
final on-orbit configuration were being studied, and a decision was 
planned for December 2003. NASA officials told us the process has been 
delayed, and NASA and its partners agreed on a program action plan in 
October 2003 that will ultimately lead to an agreement on the final on-
orbit configuration in December 2004.
Proposed Framework for Guiding and Assessing Cultural Change
    Clearly, the space station's future is dependent on the shuttle 
fleet's safe return to flight. In the past, we have reported on 
challenges facing NASA's shuttle program--especially in maintaining an 
adequate shuttle workforce.\10\ In January 2003, we reported that NASA 
needed to shift its overall orientation from processes to results, 
organizational stovepipes to matrixes, management hierarchy and control 
to flatter structures and employee empowerment, and reactive behavior 
to proactive approaches. The Columbia Accident Investigation Board's 
report and recommendations similarly indicate that needed improvements 
to the shuttle program go beyond technical enhancements and procedural 
modifications. Specifically, the Board found that despite several 
schedule slippages and rapidly diminishing schedule margins, NASA 
remained committed to 10 shuttle launches in less than 16 months to 
achieve the space station's core complete status by February 2004--a 
target date set in mid 2001. According to the Board, this schedule-
driven environment influenced managers' decisions about the potential 
risks to the shuttle if a piece of foam struck the orbiter--an event 
that had occurred during an October 2002 shuttle flight and one that 
was ultimately identified as the technical cause behind Columbia's 
breakup. The Board concluded that cultural issues--including lapses in 
leadership and communication, a dogged ``can do'' attitude, and 
reliance on past successes--were critical factors that contributed to 
the accident.
---------------------------------------------------------------------------
    \10\ U.S. General Accounting Office, Space Shuttle: Human Capital 
and Safety Upgrade Challenges Require Continued Attention, GAO/NSIAD/
GGD-00-186 (Washington, D.C.: Aug. 15, 2000).
---------------------------------------------------------------------------
    In its September 8, 2003, response to the Board's findings,\11\ 
NASA stated that it would pursue an in-depth assessment to identify and 
define areas where the agency's culture can be improved and take 
aggressive action.'' NASA indicated that it would take actions to 
achieve several goals:
---------------------------------------------------------------------------
    \11\ See NASA, NASA's Implementation Plan for Space Station Return 
to Flight and Beyond (Oct., 2003).

  <bullet> Create a culture that values effective communication and 
---------------------------------------------------------------------------
        remove barriers to the expression of dissenting views.

  <bullet> Increase its focus on the human element of change management 
        and organizational development.

  <bullet> Ensure that existing procedures are complete, accurate, 
        fully understood, and followed.

  <bullet> Create a robust system that institutionalizes checks and 
        balances to ensure the maintenance of the agency's technical 
        and safety standards.

    Most recently, on October 15, 2003, NASA indicated that the agency 
is also assessing if cultural change is needed agency-wide. However, 
the agency offered no further details beyond its previous commitments.
    As NASA works to change its culture, and as the Congress assesses 
the adequacy of NASA's corrective actions, applying a framework could 
prove beneficial. Such a framework should recognize NASA's operating 
principles and values, describe the direction of NASA's programs, focus 
attention on securing and maintaining skills for its employees, provide 
safety targets, show key results, and acknowledge the importance of 
internal and external review. The following framework--similar in 
concept to GAO's framework for ensuring the quality of its work--is 
anchored in four main areas: leadership, human capital, program 
performance, and monitoring and review.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO.

  <bullet> Leadership: The leadership anchor encompasses the agency's 
        core values, including safety as NASA's highest priority; and 
        the expectations that top management sets, such as stressing 
        the importance of character, integrity, and support of safety 
        assurance measures. This anchor also stresses the need to 
        encourage staff to raise safety concerns, regardless of the 
        staff member's formal organizational relationships or job 
        responsibilities. Strategic planning and stakeholder 
        consultation have importance only if championed by NASA's 
        leadership. The leadership anchor helps address the question 
        ``What do we do?''

  <bullet> Human Capital: Securing and assigning skilled staff, 
        understanding short-and long-term skill deficiencies, 
        establishing and maintaining skills, as well as assessing 
        individual employee performance are major components of a 
        comprehensive human capital anchor. NASA's efforts at 
        developing a strategic human capital plan and legislative 
        proposals related to human capital would be included in this 
        anchor. The human capital anchor helps address the question 
        ``Who will do it?''

  <bullet> Program Performance: While the primary focus of program 
        performance is often related to mission-related activities, 
        such as flight processing and major modifications, effective 
        program performance also measures results achieved, oversight 
        of contractors, infrastructure maintenance, and sound financial 
        management to provide decision makers with accurate information 
        with which to make resource tradeoffs and long-term 
        investments. The program performance anchor helps address the 
        question ``How do we translate what we do into processes and 
        procedures--that is, how do we operationalize our work?''
  <bullet> Monitoring and Review: The oversight and enforcement of 
        safety is a shared responsibility between program officials, 
        Associate Administrators, the NASA Administrator, and 
        independent groups such as non-advocate reviews and the 
        Aerospace Safety Advisory Panel. The monitoring and review 
        anchor helps address the question ``How is this reinforced?''

    We believe this framework can serve to identify the priorities 
agency leadership must communicate, the human capital activities needed 
to ensure that expected employee performance is achieved, the safety 
processes and procedures that need to be operationalized as part of 
program performance, and the scope of enforcement responsibilities. As 
such, use of this framework can help the Congress monitor the 
corrective actions NASA will undertake to strengthen the agency's 
culture.
    Mr. Chairman, this concludes my prepared statement. I will be happy 
to answer any questions you or other members of the subcommittee may 
have.

    Senator Brownback. Thank you very much, Mr. Li, for your 
comments. We'll look forward to questions.
    Dr. Park?

STATEMENT OF ROBERT L. PARK, DEPARTMENT OF PHYSICS, UNIVERSITY 
                          OF MARYLAND

    Dr. Park. Mr. Chairman, Members of the Committee, 10 years 
ago, in this very room, I appeared before this Committee to 
testify on the redesigned space station. If I repeated that 
testimony today, it would still be relevant. The substance of 
my testimony at that time was that a permanently manned space 
station in Earth orbit cannot be justified on the basis of 
science alone. That is still the case. What has changed is that 
the ISS, although still unfinished, is now in orbit.
    A space station once seemed to be an inevitable step in the 
conquest of space. It would relay communications around the 
globe, track weather systems, detect military movements, 
provide navigational assistance, and study the heavens free of 
atmospheric distortion. All these things are now done routinely 
and far more cheaply with the unmanned satellites.
    The International Space Station is just a microgravity 
laboratory. For most manufacturing processes, gravity is not an 
important variable. Gravitational forces are generally too 
weak, compared to inner atomic forces, to have much effect. A 
possible exception was thought to be the growth of protein 
molecular crystals, which are of enormous importance in modern 
medical research.
    In the days following the Columbia tragedy, NASA repeatedly 
cited protein crystal growth as an example of important 
microgravity research being conducted on the shuttle. NASA knew 
better.
    In 1992, a team of Americans that had grown protein 
crystals on Mir concluded that every protein that crystalizes 
in space can also be crystalized right here on Earth. 
Nevertheless, in 1997 Larry DeLucas, a University of Alabama at 
Birmingham chemist and a former astronaut, testified before the 
Space Committee of the House that a protein structure 
determined from a crystal grown on the shuttle was essential to 
development of a new flu medication that was in clinical 
trials. It simply was not true. Science magazine learned that 
the crystal had not been grown in space, but in Australia.
    In 1998, the American Society for Cell Biology, to which 
protein crystallographers all belong, called for the 
cancellation of the space-based crystal growth program, stating 
that no serious contribution to knowledge of protein structure 
or to drug discovery or design have been made in space.
    On March 1, 2000, the National Research Council, which was 
asked to study the science plan for the space station, 
concluded that the enormous investment in protein crystal 
growth on the shuttle and Mir has not led to a single unique 
scientific result.
    Nevertheless, the final flight of Columbia carried yet 
another commercial protein crystal growth experiment for the 
group at the University of Alabama in Birmingham. Research 
scheduled for the ISS also includes protein crystal growth 
studies by the same group.
    The only microgravity research that cannot be done 
robotically is that involving the affect on humans. 
Microgravity is far more deleterious to human health than 
anyone had suspected.
    By now, you have probably all seen the white paper by Dr. 
Lawrence Kuznetz. It critiques the human life sciences research 
aboard the ISS and the shuttle. Intended as an internal 
critique for his colleagues, the paper was leaked to the 
public. Kuznetz, a professor at Baylor College of Medicine and 
a flight project research manager for NASA, finds that few, if 
any, of the experiments have valid controls. ``The line between 
real and wishful science,'' he writes, ``is continually being 
blurred.'' He puts the blame directly on NASA management.
    Microgravity research planned for the ISS is merely an 
extension of research conducted on the space shuttle for over 
the past 20 years. The research is not wrong, it is just not 
very important. No field of science has been significantly 
affected by research carried out at great cost on the shuttle 
or on Mir. Much of it has never even been published in leading 
peer reviewed journals.
    Human progress is measured by the extent to which machines 
replace humans for work that is dangerous or menial. In any 
case, the only conceivable new destination for human explorers 
is Mars. Conditions on other planets or other moons are too 
extreme for humans to ever set foot on them. They are too hot, 
or their gravity would crush a human, or radiation levels are 
much too intense.
    Meanwhile, the exploration of space can't wait for 
astronauts. Telerobots are robust extensions of their human 
operators giving us a virtual presence in places no human could 
ever venture. The accomplishments of the astronauts on the ISS 
will be inconsequential. It is the scientists who control the 
telerobots, having become virtual astronauts, who will explore 
the universe. To explore where no human can ever set foot is 
the great adventure of our time.
    Thank you.
    [The prepared statement of Dr. Park follows:]

     Prepared Statement of Robert L. Park, Department of Physics, 
                         University of Maryland
    Mr. Chairman, Members of the Committee:

    It has been ten years since I last appeared before this committee 
to testify on the International Space Station program. I began my 1993 
testimony with a statement adopted by the elected Council of the 
American Physical Society:

        ``It is the view of the American Physical Society that 
        scientific justification is lacking for a permanently manned 
        space station in Earth orbit.'' APS, 20 January 1991

    The APS recently reaffirmed its statement, but the ISS, though 
still unfinished, is now in orbit. The question is, what do we do now?
    A space station once seemed to be an inevitable step in the 
conquest of space. From such a platform it would be possible to relay 
communications around the globe, track weather systems, detect military 
movements, provide navigational assistance to ships and planes, and 
study the heavens free of atmospheric distortion. All these things and 
more are now done routinely using unmanned satellites, and these 
robotic spacecraft are doing the job far better and far more cheaply 
than would ever be possible with a manned space station.
Microgravity
    The International Space Station is an orbiting laboratory for the 
study of a microgravity environment. There are two quite separate 
justifications for a microgravity laboratory: One is to examine the 
biomedical effects of extended human exposure to microgravity; the 
other is to determine whether microgravity offers any advantage in 
manufacturing.
    There had been speculation that certain manufacturing processes 
that are difficult or impossible on Earth might be easier in 
microgravity. For most manufacturing processes, however, gravity is 
simply not an important variable. Gravitational forces are generally 
far too weak compared to interatomic forces to have much effect.
    A possible exception was thought to be the growth of molecular 
crystals, specifically protein crystals. The structure of protein 
molecules is of enormous importance in modern medical research. Protein 
crystals make it possible to employ standard X-ray crystallographic 
techniques to unravel the structure of the protein molecule. It had 
been speculated that better protein crystals might be grown in zero 
gravity. Unlike the interatomic forces within a molecule, molecules are 
bound to each other by relatively weak forces; the sort of forces that 
hold water droplets on your windshield. Gravity, it was supposed, might 
therefore be important in the growth of protein crystals.
    Indeed, in the days following the Columbia tragedy, NASA repeatedly 
cited protein crystal growth as an example of important microgravity 
research being conducted on the shuttle. NASA knew better. It was 20 
years ago that a protein crystal was first grown on Space Lab 1. NASA 
boasted that the lysozyme crystal was 1,000 times as large as one grown 
in the same apparatus on Earth. However, the apparatus was not designed 
to operate in Earth gravity. The space-grown crystal was, in fact, no 
larger than lysozyme crystals grown by standard techniques on Earth.
    But the myth was born. In 1992, a team of Americans that had done 
protein crystal studies on Mir, commented in Nature (26 Nov 92) that 
microgravity had led to no significant breakthrough in protein crystal 
growth. Every protein that crystalizes in space also crystallizes right 
here on Earth. Nevertheless, in 1997, Larry DeLucas, a University of 
Alabama at Birmingham chemist and a former astronaut, testified before 
the Space Subcommittee of the House that a protein structure, 
determined from a crystal grown on the Shuttle, was essential to 
development of a new flu medication that was in clinical trials. It 
simply was not true. Two years later Science magazine (25 June 99) 
revealed that the crystal had been grown not in space but in Australia.
    Meanwhile, the American Society for Cell Biology, which includes 
the biologists most involved in protein crystallography, called in 1998 
for the cancellation of the space-based program, stating that:

        ``No serious contributions to knowledge of protein structure or 
        to drug discovery or design have yet been made in space.'' 
        ASCB, July 9, 1998

    Hoping to regain some credibility, an embarrassed NASA turned to 
the National Academy of Sciences to review biotechnology plans for the 
Space Station. On March 1, 2000, the National Research Council, the 
research arm of the Academy, released their study. It concluded that:

        ``The enormous investment in protein crystal growth on the 
        Shuttle and Mir has not led to a single unique scientific 
        result.'' NRC, 1 March 2000

    It might be supposed that at this point programs in space-grown 
protein crystals would be terminated. It was a shock to open the press 
kit for STS-107 following the Columbia accident, and discover that the 
final flight of Columbia carried a commercial protein crystal growth 
experiment for the Center for Biophysical Science and Engineering, 
University of Alabama at Birmingham. The Director of the Center is 
Lawrence J. DeLucas, O.D., Ph.D. If I go to the NASA website and look 
for research planned for the ISS, I once again find protein crystal 
growth under the direction of the Center for Biophysical Science and 
Engineering and Dr. Lawrence J. DeLucas.
Biomedical Research
    The microgravity environment has been found to be far more 
deleterious to human health than anyone had suspected. Indeed, in the 
first heady early days of the space age there was speculation that 
someday heart patients might be sent into orbit to rest their hearts, 
which would not have to pump blood against the force of gravity. On the 
contrary we find that not only is the heart severely stressed in zero 
gravity, osteoporosis, muscle atrophy, immune suppression, sleep 
disorders, diarrhea and bouts of depression and anxiety are endemic to 
the space environment.
    By now you have all probably seen the ``White Paper'' by Dr. 
Lawrence Kuznetz that critiques the human life-sciences research aboard 
the ISS and the Shuttle. Intended as an internal critique for his 
colleagues, the paper was leaked to the public. Kuznetz, a professor at 
the Baylor College of Medicine, and flight projects research manager 
for a NASA academic consortium, finds that few if any of the 
experiments have valid controls. ``The line between real and wishful 
science,'' he writes, ``is continually being blurred.'' He puts the 
blame directly on NASA management. The stated objective of the life 
sciences research planned for the ISS is to develop ``countermeasures'' 
for the staggering number of health risks facing astronauts, 
particularly those might who might someday venture beyond the relative 
safety of low-Earth orbit. ``Under the worst of circumstances,'' he 
writes, ``ISS will be in the ocean without a single countermeasure in 
the books for the cardiovascular, neurovestibular, pharmacokinetics, 
behavior and other major disciplines. Then again, we could get lucky.''
    It is unfortunate that in our democracy, conscientious public 
servants, willing to risk their careers by leaking documents to the 
public, may be the only the only protection we have against self-
serving and misleading public pronouncements by government agencies. 
What's behind this is the NASA conviction that the public will not 
support a space program that does not involve putting humans in space. 
Research planned for the ISS is merely an extension of the sort of 
science conducted on the Space Shuttle over the past 20 years.
    The research is not wrong, it is just not very important. No field 
of science has been significantly affected by research carried out on 
the Shuttle or on Mir at great cost. Much of it has never even been 
published in leading peer-reviewed journals.
    The real objective of the most expensive science laboratory ever 
constructed is to provide astronauts with something to do. Ned Ludd, an 
English laborer who destroyed weaving machinery in 1779 to preserve 
jobs, would have cheered. But human progress is now measured by the 
extent to which machines are used to replace humans to perform tasks 
that are dangerous or menial.
    Even if shielding is added to spacecraft to protect against 
radiation, and a long axis spacecraft is rotated to provide artificial 
gravity at great cost, the only conceivable new destination for human 
explorers is Mars. Conditions on other planets or their moons are too 
extreme for humans to ever set foot on them. They are too hot, or their 
gravity would crush a human, or radiation levels are much too intense.
    Mars is no garden of Eden either, but the 1997 Pathfinder mission 
to Mars gave us a glimpse of the future. Pathfinder landed on Mars 
carrying a lap-sized robot named Sojourner. The tiny robot caught the 
imagination of people everywhere. Sojourner was a telerobot. Its brain 
was the brain of its human operator 100 million miles away on Earth. 
Its senses were the senses humans gave it. The whole world saw Mars 
through Sojourner's eyes. It had an atomic spectrometer for a nose that 
could sniff the rocks to see what they were made of, and thermocouples 
that could feel the warmth of the midday sun in the sand beneath its 
wheels. It never stopped for lunch or complained about the cold nights. 
Trapped in their space suits, human explorers could have done no more. 
Two much more sophisticated telerobots are now on their way to Mars.
    Meanwhile, the exploration of space can't wait for astronauts. Our 
robots have already visited every planet save distant Pluto, testing 
the Martian soil for traces of life, and mapping the hidden surface of 
the cloud-shrouded planet Venus with radar eyes. Long before a human 
expedition to Mars could be launched, the robots will have finished 
their exploration.
    We must ask what it means to ``be there.'' Telerobots are robust 
extensions of their frail human operators, giving us a virtual presence 
in places no human could ever venture. The accomplishments of the 
astronauts on the ISS will be inconsequential. It is the scientists who 
control the telerobots, having become virtual astronauts, who will 
explore the universe. To explore where no human can ever set foot is 
the great adventure of our time.

    Senator Brownback. Thank you, Dr. Park.
    Dr. Pawelczyk, please?

       STATEMENT OF JAMES A. PAWELCZYK, Ph.D., ASSOCIATE

            PROFESSOR OF PHYSIOLOGY AND KINESIOLOGY,

                 PENNSYLVANIA STATE UNIVERSITY

    Dr. Pawelczyk. Mr. Chairman, Senator Nelson, and Members of 
the Committee, good afternoon.
    I'm a life scientist and a former payload specialist 
astronaut who did perform cutting-edge experiments in space, 
and I thank you for the opportunity to discuss the progress 
that NASA has made in strengthening its ISS research program.
    In the life sciences community, we speak of translational 
research, and that elucidates molecular and genetic mechanisms 
and scales these principles to larger and more complex systems. 
The journey starts with a single isolated process, and it ends 
with a large organism where hundreds of effects interact. 
Translational research is the gold standard of the NIH, and 
it's exactly what the research community expects from the ISS.
    NASA launched the Research Maximization and Prioritization 
Task Force, which is known as ReMAP, to achieve just this goal. 
ReMAP established two high-priority research areas for the ISS, 
illuminating the nature of the universe at its most fundamental 
levels, and enabling human exploration of space.
    Despite some dissent, the majority of participants 
supported our primary recommendation. And I quote, ``If 
enhancements to ISS beyond the U.S. core complete, are not 
anticipated, NASA should cease to characterize the ISS as a 
science-driven program.'' Three constraints led us to this 
conclusion: up-mass to the station, power on the shuttle, and 
crew time.
    Now, since ReMAP concluded its work just over a year ago, 
NASA has adopted many of our recommendations, and allow me to 
cite three examples of the progress they've made.
    First, budgets have been realigned. Most notably, funding 
for facilities that house mice and rats in variable gravity has 
been restored. These habitats will provide, for the first time 
in history, our only ability to study the long-term effects of 
Mars-like gravity on mammals, and this is an absolutely 
essential step before we make human trips to Mars.
    Second, research that could be done without the shuttle has 
been relocated to other platforms, such as Progress or photon 
rockets, and this has reduced the backlog of current flight 
experiments in the fundamental space biology division of the 
Office of Biological and Physical Research by more than 25 
percent.
    Third, NASA is working proactively to reduce the time 
required to prepare an ISS scientific payload. Earlier this 
year, a team of external scientists and NASA managers built a 
set of recommendations that put investigators in direct contact 
with payload developers, engineers, and the ISS crew members. 
Satisfaction of the research community will become part of the 
performance plan of senior management. If the investigator's a 
customer, NASA has taken a crash course in customer service.
    The overall message, in my view, is positive. The seeds of 
a science-driven culture are being sown at every level of this 
agency.
    We still need to embellish translational research on the 
ISS, and one example stands out. Osteoporosis afflicts 
astronauts at rates ten times greater than postmenopausal 
women. Using astronauts as human subjects, experiments now 
onboard the ISS will allow us to calculate stresses in the hip, 
a common location for this problem. At the other end of the 
translational spectrum, a cell science program is thriving, 
thanks to NASA's celebrated bioreactors. In the next 5 years, 
we'll be able to study reference organisms such as mice and 
rates, bridging the gap between cell culture and human flight 
operations. The potential return here is immense. The 
application of this research to our aging American public could 
become one of the most important justifications for an 
International Space Station.
    Mr. Chairman, Mr. Nelson, given sufficient resources, I am 
convinced that NASA will deliver the rigorous translational 
research program that the scientific community requires and the 
American people deserve.
    I sincerely thank you for your vigilant support of the 
Nation's space program and for the opportunity to appear before 
you today.
    [The prepared statement of Dr. Pawelczyk follows:]

Prepared Statement of James A. Pawelczyk, Ph.D., Associate Professor of 
       Physiology and Kinesiology, Pennsylvania State University
                                Abstract
        NASA is working proactively to improve its science culture, 
        with excellent results. Despite laudable efforts to optimize 
        the International Space Station for research, enhancements 
        beyond the ``core complete'' configuration will be necessary to 
        assure a robust and vigorous science program that meets the 
        expectations of the external science community.

    Mr. Chairman and Members of the Committee:

    Good afternoon. I thank you for the opportunity to discuss the 
progress that NASA has made in strengthening research on board the 
International Space Station. I have been a life sciences researcher for 
20 years, including my work as a payload specialist astronaut, or guest 
researcher, on the STS-90 Neurolab Spacelab mission, which flew on the 
space shuttle Columbia in 1998. I am a standing member of NASA's Life 
Sciences Advisory Subcommittee, and last year I served as a member of 
the Research Maximization and Prioritization (ReMAP) Taskforce.
    My area of expertise is blood pressure regulation. Without the 
nervous and cardiovascular systems that are so uniquely tuned to 
humans, none of us would be leaving our chairs today without passing 
out. Similar problems affect up to 500,000 Americans, and develop in as 
many as 70 percent of astronauts after spaceflight. Nationwide, only a 
handful of laboratories are capable of studying this problem by 
inserting microelectrodes in humans to record signals from nerve 
fibers, or by measuring the release of neurotransmitters from nerve 
terminals. Five years ago, we made the space shuttle one of those 
laboratories. I offer you personal testament, and the incredible 
success of the Neurolab mission, as evidence that cutting-edge research 
can be performed m space.
    Based on the favorable response from the scientific community 
toward Neurolab, Congress authorized preliminary funding to develop 
another research mission, which became STS-107. Like the rest of the 
NASA family, I lost friends and colleagues on February 1, 2003. We owe 
the crew of STS-107 our very best efforts to assure that their 
dedication, their sense of mission, will continue.
Translational research: the goal of the ISS
    A popular ``buzzword'' in the biological research community has 
been the word ``translational.'' In this context, research elucidates 
molecular and genetic mechanisms, and scales, or translates, these 
principles to larger and more complex structures. In the life sciences, 
translational research spans the distance from molecular biology to 
medicine, with the steps of cell biology, organismal biology, and 
integrative physiology lying somewhere between. It's a journey of 
discovery from small to large; from studying a single process in 
isolation to a large organism where many processes interact. Complexity 
exists at each and every step along the path, illuminated by techniques 
that let us see further, and with greater clarity.
    A corollary to this description is that single experiments rarely, 
if ever, change the course of science. A robust research program 
includes all elements of translational research, delivering the fruits 
of the lab bench to everyone. Translational research is the ``gold 
standard'' of the NIH, and it is what the research community, and the 
American people, should expect from the ISS.
The challenge of simultaneous operations and construction
    While I was training for STS-90 in 1996 and 1997 I learned of 
NASA's plan to provide an early science capability on board the ISS. 
The simple analogy is moving into a house while it is still under 
construction; although it's possible, it's not optimal. At the time I 
wondered about the wisdom of this decision, but in hindsight I must 
agree that it was a sensible, albeit challenging, approach to provide 
rapid return on taxpayer investment. It was a calculated gamble that 
left NASA open to criticism. As research hours began to accumulate, 
some scientific groups complained vociferously that the research on the 
ISS was neither ``world class'' nor ``cutting edge.'' ISS costs were 
creeping out of control, culminating in a $981 million realignment of 
research funding from the Office of Biological and Physical Research to 
the Office of Spaceflight for continued ISS construction. Fiscal 
accounting was cumbersome, and research success was in jeopardy.
    The ISS Management and Cost Evaluation (IMCE) Task Force chaired by 
Tom Young was a direct response to these problems. The most important 
impact to the scientific community was the proposal of a ``core 
complete'' configuration that controlled near-term costs by reducing 
the ISS crew complement from 6-7 to 3 and postponing or eliminating the 
infrastructure necessary to support the larger crew. The IMCE Task 
Force further recommended that NASA constitute a review group to 
prioritize the remaining ISS resources for the best research possible. 
To return to the building analogy, some bedrooms were deleted, other 
rooms were left partially finished, and NASA needed to get the house 
inspected before the money ran out.
The ReMAP Process
    In response to the IMCE report, NASA adopted the core complete 
milepost and launched the Research Maximization and Prioritization Task 
Force, commonly known as ReMAP, in the spring and summer and 2002. 
Chaired by Rae Silver of Columbia University, the Task Force included 
two National Medal of Science awardees, one Nobel prize winner, and 
more than a dozen members of the National Academy of Sciences, 
representing the full breadth of translational research in the 
biological and physical sciences.
    ReMAP affirmed two broad, often overlapping, top priorities for the 
type of research that should be conducted on board the International 
Space Station. Both are consistent with the historical mission of NASA. 
One is the category of intrinsic scientific importance or impact, 
research that will illuminate our place in the universe, and the nature 
of that universe at the most fundamental levels. In the other category 
we valued research that enables human exploration of space, the logical 
outgrowth of the National Aeronautics and Space Exploration Act of 
1958. It should be no surprise to you that over the past 15 years other 
review panels, both internal and external to NASA, have named similar 
goals. What was unique to ReMAP was our challenge to consider both the 
physical sciences and biological sciences simultaneously. This resulted 
in spirited debate and intellectual foment of the highest caliber.
    The ReMAP Task Force, in my opinion, was well constituted. Despite 
some dissent, the vast majority of participants supported our primary 
recommendation:

        ``If enhancements to ISS beyond `US core complete' are not 
        anticipated, NASA should cease to characterize the ISS as a 
        science driven program.''

    The ISS, would not be, in the Task Force's opinion, a world-class 
science facility.
    Three constraints led us to this conclusion: The first was up-mass: 
a shuttle schedule of four flights per year, as proposed by the IMCE 
for cost containment, was simply not sufficient to carry the equipment 
and research samples necessary to sustain a translational research 
program while assembling and maintaining the ISS. The second was power 
on the shuttle: Some experiments, such as those that utilize animal 
surrogates, require power while they are transported to the space 
station. An insufficient amount of powered space was available. 
Finally, there was the issue of crew time. Normal space station 
operations were estimated to require the full time effort of 
approximately 2\1/2\ crewmembers, leaving just 20 person-hours per week 
available for research.
Progress since ReMAP
    The ReMAP report was well received, and NASA is using it as a 
blueprint for changing ISS research. Since the Task Force's conclusion 
in June 2002, NASA has made excellent progress in the areas of 
management and prioritization that will optimize research on the ISS. 
In September 2002, the NASA Advisory Council endorsed NASA's response 
to ReMAP.
    At that time no Federal agency ranked worse than NASA on the 
Executive Branch's Management Scorecard. Today, only 10 of 27 agencies 
rank better overall. People in this agency understand the need to 
improve, and they're responding. The NASA culture is evolving, in favor 
of safety and science. Allow me to cite a few examples:

    First, several low priority research efforts have been descoped or 
eliminated, and unfunded, higher priority items have received Phase I 
funding. Most notable is the restoration of limited funding for the 
core of the Advanced Animal Habitat, which houses mice and rats for 
microgravity and variable gravity research. These habitats can be 
mounted on the life sciences centrifuge, scheduled for delivery in FY07 
or FY08, and will provide for the first time in human history the 
ability to study the long-term effects of fractional (moon or Mars-
like) microgravity conditions on a variety of biological organisms.

    Second, integrative research has been revitalized, including 
renewed collaboration with the Russian Institute for Biomedical 
Problems. A Joint Working Group meeting is taking place in Moscow today 
and tomorrow. Within NASA, a joint Cell Sciences and Genornics Council 
has been formed between the Physical Sciences and Fundamental Space 
Biology Divisions of OBPR to coordinate genomic and cell biology 
research. The need for such coordination is acute. Recent cell culture 
experiments by Timothy Hammond at Tulane University suggest that the 
activity of more than 15 percent of the human genome changes during 
microgravity exposure. This is not just a simple statistic; it's a 
profound demonstration that gravity alters gene expression of cells, 
which must affect our basic structure and composition. We've barely 
begun to explore what these changes mean. This is a research area where 
biology, physical sciences, and informatics naturally blend, and NASA's 
problem-based approach is a model for NIH and NSF to emulate.

    Third, research that can be done without reliance on the shuttle 
has been relocated to other platforms in a renewed effort of 
international collaboration and cooperation. A biological version of 
the hitchhiker payload experiments has been developed, which can be 
placed on Progress or Foton rockets. This move alone reduces the 
backlog of flight experiments in the Fundamental Space Biology Division 
of OBPR by more than 25 percent.

    Fourth, NASA is working proactively to reduce the time required to 
prepare an ISS scientific payload for flight. Earlier this year NASA 
constituted a Station and Shuttle Utilization and Reinvention Team. 
Comprised of representatives of the scientific community and senior 
management from seven NASA centers, this group was tasked with 
developing a set of recommendations that strengthen NASA's emphasis on 
the research community and remove impediments to ISS utilization. The 
eight top recommendations, which will be implemented in coming months, 
represent an enlightened view that puts research investigators in 
direct contact with payload developers, engineers, and ISS crewmembers. 
The investigator is the customer, and NASA has taken a crash course in 
customer service.

    Fifth, the program of ground-based research has been reinvigorated, 
with no less than 7 solicitations for research proposals in the life 
and microgravity sciences announced in FY03. The final complement of 
proposals will depend on funding of the Human Research Initiative that 
is part of the President's FY04 budget submission to Congress.

    Sixth, the seeds of a science-driven culture are being sown at 
every level of the Agency. A Deputy Associate Administrator for Science 
has been established in the Office of Biological and Physical Research. 
The ISS now has a full-time program scientist on the ground who 
represents the research community on issues related to ISS budget, 
construction, and maintenance. A crew science officer, currently Ed Lu, 
takes ownership for the science experiments in-flight. Satisfaction of 
the research community is to become part of the performance plan of all 
Associate Administrators, Center Directors, and the ISS and Shuttle 
Program Managers. The message is simple and powerful: throughout NASA, 
science deserves a seat at the table.
Challenges for the future
    I am pleased with NASA's recent efforts to increase science 
productivity, and Sean O'Keefe and his senior management deserve credit 
for their leadership during such trying times. The international 
partners have helped NASA continue its flight research programs despite 
the shuttle stand down, and they are to be applauded for their 
commitment. The ISS program has concluded that at least five shuttle 
flights can be supported with a three-orbiter fleet, which should 
ameliorate the upmass constraint identified by ReMAP. Estimates for 
crew time available to conduct research continue to hover at 10 hours 
per week, and this situation needs to be corrected. The assembly 
complete configuration, which supports a six-person crew, should 
increase research time by an order of magnitude or more.
    If there's one type of technology that is revolutionizing biology 
today, it is imaging technology. Fluorescent tags permit us to 
visualize the movement of ions in living cells, computerized 
tomography, magnetic resonance imaging, and ultrasound allow us to 
reconstruct deep anatomy with unprecedented detail, and magnetic and 
electron spin resonance spectroscopy allow us to track the flux of 
energy and molecules in living systems. NASA-funded researchers employ 
all of these techniques, but investigators and the American public need 
better access to this imagery when such approaches are used in space. 
The goal should be remote operation of experiments by ground 
investigators, concurrent with preparation of samples by trained 
astronauts in space, and real-time delivery of images that are sure to 
inspire and educate the American public much like the Hubble Space 
Telescope has done.
    We need to embellish translational research on the ISS, and one 
example stands out. Osteoporosis afflicts astronauts at rates 10 times 
greater than post-menopausal women. Using astronauts as human subjects, 
research now being conducted on the ISS will determine stresses in the 
hip, a common location for osteoporosis. In December 2003, NASA will 
host a subgroup discussion at the American Society of Cell Biology to 
discuss the mechanisms by which cells sense mechanical force. NASA's 
celebrated bioreactor program, a revolutionary way to culture cells, is 
sure to be a part of this conference. Working from both the 
``beginning'' and ``end,'' these efforts make serious headway on a path 
of translational research. But we need to fill in the missing pieces by 
extrapolating the cell and human findings to reference organisms and 
mammalian models such as mice and rats. We need the capability to house 
these organisms on the ISS and that's expected within five years. But 
equally important, we need time for crew members to prepare and conduct 
these experiments, and that time can be found only when the ISS moves 
beyond the core complete configuration. The potential return is 
immense; the application of this research to our aging public could 
become one of the most important justifications for an International 
Space Station.
    Mr. Chairman, members of the Committee, given sufficient resources, 
I am convinced that NASA will deliver the rigorous translational 
research program that the scientific community expects, and the 
American people deserve. I sincerely thank you for your vigilant 
support of the Nation's space program, and the opportunity to appear 
before you today.

    Senator Brownback. Thank you very much.
    Dr. Zygielbaum, please?

          STATEMENT OF ARTHUR I. ZYGIELBAUM, DIRECTOR,

           NATIONAL CENTER FOR INFORMATION TECHNOLOGY

             AND EDUCATION, UNIVERSITY OF NEBRASKA

    Mr. Zygielbaum. Yes. Mr. Chairman, distinguished Members of 
the Subcommittee, I'm honored to have been invited to testify 
about International Space Station safety.
    I am testifying as a private citizen. By way of background, 
I am on the faculty at the University of Nebraska, Lincoln. I 
moved there in 1998 after nearly 30 years at the Jet Propulsion 
Laboratory, NASA's facility in Southern California. I became a 
consultant to the NASA Aerospace Safety Advisory Panel in 2001, 
and a full member of the panel a few days after the 
Challenger--or the Columbia disaster, in February. As you're 
aware, I resigned from that panel last month.
    To cut to the chase, is space station safe? Unfortunately, 
the answer cannot be stated as yes or no. For something as 
complex as space station or the space program or even driving 
to work, the answer is, ``Probably.'' We can only take actions 
to reduce the risk of an incident, or, in the vernacular, ``a 
bad day.'' The proposals that I'm going to make reflect some 
opinions of the ASAP panel and members. They're designed to 
improve safety by reducing risk.
    ISS safety needs to be addressed in the context of NASA, as 
well as in and of itself. ASAP members, by their resignation 
last month, and many other groups, have called for independent 
NASA safety--an independent NASA safety oversight body. An 
independent oversight body can provide effective checks and 
balances against the forces that erode safety--for example, 
changing culture, budget and schedule pressure, and so on. ASAP 
could not provide that oversight. Its $500,000 annual budget 
allowed members and consultants only two to 5 days per month in 
meetings or in field work. Despite that, ASAP's annual reports 
had, for over three decades, identified technical problems and 
deficiencies in safety organizations and processes. As an 
advisory body, ASAP lacks sufficient authority, in terms of 
resources, time, and reporting, to meet an oversight 
responsibility.
    Unlike ASAP, a, for want of a name, NASA safety board 
should consist of a full-time board with the ability to hire a 
small number of full-time researchers to aid in field work, 
reviews, and investigations. It should have a budget 
independent of NASA's. It could report to the NASA 
Administrator, but, for more independence, it probably should 
report to Congress.
    Currently in NASA, a project or program manager can issue a 
waiver to safety-critical requirements to accommodate technical 
difficulties or challenges in budget and schedule. At its last 
meeting, ASAP recommended that NASA move waiver authority for 
safety-critical requirements to an appropriate independent 
safety organization. This is very similar to the CAIB 
recommendation on independent technical authority. To get a 
waiver, a program manager would apply to that safety 
organization. This would isolate safety-critical decisions from 
pressures of budget and schedule.
    A big caveat. Nothing in what I said with regard to an 
oversight board or safety waivers should be construed to remove 
or weaken the safety functions integral to engineering, 
management, and operations in NASA's projects.
    Accountability for safety must remain with the implementing 
authority.
    Several weeks ago, headlines proclaimed that I, as an ex-
NASA advisor, declared that ISS was in critical danger. I'd 
like to clarify that. What I said was that ASAP had seen three 
incidents that might indicate a trend.
    As reported in the ASAP 2002 annual report, the indications 
were difficulties in communications, disagreement in safety 
processes, and misunderstanding of space station configuration 
between the Russian and American space station organizations. 
None of these incidents individually seriously endangered ISS. 
The panel was concerned that they had occurred and could be an 
indication that more dangerous incidents might follow.
    Space station is a complicated spacecraft. It is managed in 
a decentralized manner in accord with international agreements 
by committees and strong interpersonal relationships.
    As space station grows to core complete and beyond, 
technical and operational complexities will increase, 
coordination will become more critical, and, driven by the 
complexity, the chances of an accident will increase. Had I 
remained with ASAP, I would have argued for a recommendation 
that NASA and its partners investigate mechanisms to create a 
centralized international space station management structure 
and an independent international safety oversight board.
    Let me note that ASAP was also concerned about having 
sufficient Russian Soyuz and Progress supply vehicles during 
this period of shuttle unavailability. In addition, we were 
concerned about the availability of spare parts.
    Space station is a development vehicle. The reliability and 
interoperability of systems is being learned through 
experience. Sufficient up and down mass capability must be 
available to replace failed hardware and crew consumables as 
this experience is gained. If space station were to become 
unhabitable, the crew can turn off the lights and come home, 
but that would fail to protect our investment in ISS and the 
safety of those on the ground should the result be an 
uncontrolled reentry.
    As an engineer, I appreciate the incredible challenges that 
have been overcome by the International Space Station partners. 
The proposals I have made are intended to reduce risk and 
assure the continued safe operation of the space station.
    I'd like to close by thanking the Chair and the 
Subcommittee for the opportunity to have made these remarks.
    [The prepared statement of Mr. Zygielbaum follows:]

 Prepared Statement of Arthur I. Zygielbaum, Director, National Center 
    for Information Technology and Education, University of Nebraska
    Mr. Chairman and Distinguished Members of the Subcommittee:

    I am honored to have been invited to testify with regard to the 
safety of the International Space Station. Although I am testifying as 
a private citizen, I am a member of the administrative faculty, an 
associate professor of computer science and engineering (a courtesy 
title) and head of a research center in educational technology at the 
University of Nebraska-Lincoln (UNL). My testimony does not reflect any 
position or opinion of University of Nebraska-Lincoln. I joined UNL in 
January 1998 after spending nearly 30 years at the NASA/CALTECH Jet 
Propulsion Laboratory. While at JPL I held positions in electronic and 
software engineering as well as in line and program management. In 
August 2001 I was appointed as a consultant to the NASA Aerospace 
Safety Advisory Panel (ASAP). Three days after the Columbia tragedy, 
the NASA Administrator appointed me as a full member of the Panel. As 
you are aware, I resigned that appointment about a month ago.
    In presenting my view of space station safety, I will first address 
the International Space Station (ISS) program within the context of 
NASA safety. Second, I will address specific issues impacting ISS 
safety and some over-sensationalized headlines attributed to me. My 
major points will be to recommend the establishment of independent 
safety oversight for NASA and the creation of a centralized, but 
international, management structure for the International Space 
Station.
    Is ISS safe? The answer cannot be ``yes'' or ``no''. For an 
enterprise as complex as space station, or the space program, or even 
driving to work, the answer is ``probably.'' We can only act to reduce 
the risk of an accident--a bad day. The actions proposed in this 
testimony are designed to reduce risk by providing a back-stop function 
for safety and by reducing the pressure to cave in to the ever present 
pressures of limited time and resources.
I. ISS Safety as a part of NASA Safety
    The International Space Station program exists within the 
organization and culture of NASA. Its safety organization and 
assignment of safety responsibilities is similar to that in other NASA 
programs, including the Space Shuttle. The Challenger and Columbia 
disasters can be traced, at least in part, to allowing safety margins 
to erode in the face of budget and schedule pressure. The Aerospace 
Safety Advisory Panel has repeatedly called for independence of safety 
organizations and for clear and clean lines of safety responsibility, 
accountability and authority to provide the checks and balances that 
resist such erosion.
Independent Safety Oversight
    The call to establish greater independence for NASA's safety 
organization is not a new one. The 1999 Shuttle Independent Assessment 
Team stated ``NASA's safety and mission assurance organization was not 
sufficiently independent.'' The Rogers Commission investigating the 
Challenger disaster called for independent oversight. The Columbia 
Accident Investigation Board (CAIB) report included the following, 
``NASA's safety system lacked the resources, independence, personnel, 
and authority to successfully apply alternate perspectives to 
developing problems. Overlapping roles and responsibilities across 
multiple safety offices also undermined the possibility of a reliable 
system of checks and balances.''
    The Aerospace Safety Advisory Panel could not provide the needed 
oversight. The Panel's $500,000 annual budget only allowed panel 
members to spend 2-5 days per month in meetings or in the field. In 
1978, Herbert Grier, ASAP Chairman, testified to this very Senate 
Subcommittee, ``The Panel's objective, and the limitation on the 
members' time, indicate that we can be expected to review NASA 
operations only to the extent necessary to judge the adequacy of the 
NASA management system to identify risks and to cope with them in a 
safe, efficient manner.''
    In the words of the CAIB, the Aerospace Safety Advisory Panel was 
``not very often influential.'' Despite the fact that ASAP's Annual 
Reports had for at least three decades identified technical problems 
and deficiencies in safety organization authority, accountability, 
responsibility, independence and funding, an attempt was made in a 
Senate Appropriations Committee report to hold ASAP accountable for not 
identifying the cultural problems found by the CAIB. ASAP was an 
advisory group--by definition to answer questions asked of it--to give 
advice. When my colleagues and I resigned from ASAP it was to 
facilitate the establishment of a safety oversight group with needed 
independence and authority. It was to establish an oversight group 
whose authority matched its responsibility.
    An independent oversight board can provide effective checks and 
balances against the forces that erode safety--changing culture, 
budget, schedule, aging equipment, inadequate processes, etc. The 
Navy's technical warrant process, the National Transportation Safety 
Board (NTSB), and the Nuclear Regulatory Commission are all examples of 
oversight organizations providing strong checks and balances to 
implementing organizations.
    Unlike ASAP, the, for want of a name, NASA Safety Board should be 
full-time and include a small staff of researchers to aid in field 
work, reviews, and investigations. It should have sufficient funding to 
hire its own research personnel and to task NASA safety experts for 
specific studies. The Board must have the ability to communicate with 
all levels of NASA management in order to ask questions and examine 
safety-related processes and standards. While the Board could report to 
the NASA Administrator, it could be chartered under Congress, like the 
NTSB and the National Research Council, to achieve greater 
independence. It would act as a final authority in issues related to 
safety.
    From our experience in ASAP, this Board must be constituted outside 
the Federal Advisory Committee Act (FACA). While FACA's purpose in 
controlling committees is laudable, it has several provisions that 
would weaken an oversight group. In particular, FACA requires that a 
Federally Designated Official accompany committee members in any fact 
finding activities. The act also requires that all recommendations to 
the government be first aired in a public meeting. These restrictions 
impede investigation and effectively prohibit dealing with sensitive 
programmatic or personnel issues.
Waiver Authority
    In response to a request by the NASA Administrator during our March 
2003 annual meeting, ASAP began a study of NASA's safety organization 
and culture. I headed the Safety Organization and Culture Team (SOCT) 
that was assigned that task. The Team's initial findings and 
recommendations were presented publicly at Kennedy Space Center last 
September. The report, which was approved by ASAP as a whole, is 
appended to this testimony.
    Although there were many initial findings, the Team reached one 
clear initial conclusion: isolate the obligation to meet safety 
critical requirements from the pressures to meet schedules and budgets. 
Issued before the Columbia Accident Investigation Board Report, the 
single initial recommendation was nonetheless strongly in concert. 
Quoting from the Team report:

        ``It is traditional in NASA for project and program managers to 
        have the authority to authorize waivers to safety requirements. 
        Safety critical waiver authority should reside with an 
        independent safety organization using independent technical 
        evaluation. Moving this authority would increase the management 
        oversight of safety-related decisions and would strongly 
        support the creation of a well-respected and highly-skilled 
        safety organization.

        Recommendation:

        ASAP recommends that NASA institute a process change that 
        requires that waiver requests to safety critical requirements 
        be submitted by project and program managers to a safety 
        organization independent of the program/project. That 
        organization would have sole authority, excepting appeal 
        outside the program/project potentially moving up to the level 
        of the Administrator.''

    In the present NASA organization, if safety personnel identify a 
safety critical problem, they report it to a project manager who has 
the authority to ignore or waiver the requirement. The safety 
organization could appeal to the next level of project or program 
management to override the waiver.
    ASAP proposes that safety is paramount. Under the proposed 
recommendation, once a safety critical problem is identified by safety 
personnel, the project manager would have to apply to the safety 
organization for a waiver. If it is not granted, he or she would appeal 
to the next higher level in the safety organization.
    The project manager's responsibility for setting and enforcing 
technical requirements would remain unchanged. The authority to issue 
waivers to safety critical requirements would move to a safety 
organization. The responsibility to meet safety critical requirements 
would thereby not be easily weakened in response to cost, schedule, or 
other influence.
    This process is similar to the Technical Warrant process used in 
the U.S. Navy Sea Systems Command. A technical authority is created who 
holds final authority for waivers and changes to technical 
requirements. The technical authority is an expert who is isolated from 
the project manager's schedule and budget pressures. (I am now part of 
an Independent Review Team examining the state of this process for the 
Navy.)
Caveat
    Nothing in the suggestions for an oversight board or independent 
waiver authority should be construed to remove responsibility for 
safety from project and programs. Oversight boards or independent 
authorities cannot replace safety functions integral to the 
engineering, management, and operation of NASA's projects and programs. 
Accountability for safety must remain with those who have implementing 
authority.
II. International Space Station: An Accident Waiting to Happen?
    Several weeks ago headlines appeared world-wide stating that I, as 
an ex-NASA advisor, declared that the International Space Station (ISS) 
was in critical danger. In fact, what I stated, at a public ASAP 
meeting in September, was that incidents had occurred that might be a 
trend indicating problems with Space Station safety and operational 
processes.
    The 2002 ASAP Annual Report included this statement, ``Several 
events during the past year triggered the Panel's concern. For example, 
shortly after the docking of STS-113 with ISS, there was loss of ISS 
attitude control due to lack of coordination of the system 
configuration. In another case, lithium thionyl chloride batteries were 
used on board ISS over the explicit objection of several partners. 
Although this occurred within appropriate existing agreements and 
without incident, the precedent is potentially hazardous. The Panel 
notes that differences exist in the safety philosophies among the 
partnering agencies. There is the potential for hazardous conditions to 
develop due to disagreements.''
    In September a Russian controller sent commands to fire thrusters 
before American controllers disengaged the Control Moment Gyroscope 
system. The result was one attitude control system countering the 
actions of the other. Both attitude control incidents resulted in a 
relatively short loss of attitude control.
    Although ISS was not seriously endangered by any of these incidents 
individually, the concern of the Panel was that miscommunication or 
misunderstandings about the system configurations could lead to 
extremely hazardous conditions. The Panel indicated that it would 
investigate this trend to understand if it was real and if actions were 
being taken to improve the situation.
    The Russian and American organizations involved in ISS have 
cultural differences that impact safety. These differences are 
manifested in several ways. In a briefing by ISS managers, we were told 
that Russian safety organizations tend to fit hierarchically into their 
operational organizations. This differs from the American philosophy of 
parallel safety organizations that offer at least some level of 
independence. Of greater concern, however, is the sensitive nature of 
the interface between the American and Russian agencies. Clouded by 
issues of international protocol, national pride, security, and 
technology transfer, it was difficult for ASAP to obtain hard 
information about the Russian side of the command and control 
incidents.
    ISS is a complicated spacecraft. It is a remarkable achievement. As 
an engineer I appreciate the difficulties that have been overcome in 
developing interfaces that function well across physical, electronic, 
and electrical connections. As a manager I am concerned about the 
highly decentralized management that operates space station.
    Had I remained with ASAP I would have argued for a 2003 
recommendation to investigate mechanisms to create a centralized 
international ISS management structure and an independent international 
safety oversight board. As ISS builds toward ``core complete'' and 
beyond, complexities will increase, coordination will become more 
critical, and the chance for accident will grow exponentially. A 
stronger management and safety structure is, in my opinion, the only 
means to salve this concern.
    I am pleased to note that in a recent conversation with the Space 
Station Program Manager, William Gerstenmaier, he indicated that the 
Columbia tragedy had been a ``wake-up call'' to both the Russian and 
American teams. The result was improved communication and better 
exchange of technical information. Despite my concerns, I am amazed and 
in awe of how much has been accomplished by Bill, his people, and their 
Russian counterparts.
III. Other Issues
    For the record, in its 2002 Annual Report and during meetings with 
NASA officials, ASAP expressed concerns and made specific 
recommendations that impact ISS. The recommendations included:

  <bullet> Assure adequate funding for the development and maintenance 
        of micrometeoroid/orbital debris (MMOD) software.

  <bullet> Continue priority efforts to find a solution to the lack of 
        a crew rescue vehicle in the period from 2006 to 2010, between 
        the planned end of Soyuz production and the availability of the 
        Orbital Space Plane.

  <bullet> Review crew performance in light of apparent crew fatigue 
        during EVA. This recommendation was sparked by a near miss 
        collision between the ISS remote manipulator system and a 
        docked space shuttle.

  <bullet> Assure that American and Russian segment control computers 
        can each operate safety critical functions in all segments to 
        mitigate hazards caused by computer failure in any segment. 
        (American computers cannot control the propulsion system in the 
        Russian segment, for example.)

    The Panel was concerned about the availability of Russian Soyuz 
spacecraft and Progress supply vehicles. ISS is still a developmental 
vehicle. As such, the reliability and interoperability of systems and 
components is being learned. Sufficient ``up'' and ``down'' mass 
capability must be available to support hardware replacement and crew 
consumable resupply. While a crew can turn off the lights and come home 
in an emergency, that is not the best answer in terms of protecting the 
ISS investment nor lives and property on the ground if ISS makes an 
uncontrolled atmospheric reentry.
IV. Final Comments
    The Aerospace Safety Advisory Panel effectively came to an end when 
all of its members and consultants resigned last month. I am very proud 
of my short tenure with ASAP. Over its 36 year history, ASAP was 
populated by individuals outstanding in their fields of expertise and 
in their commitment to space exploration. As a group they identified 
significant safety issues that ranged from organizational problems 
through major technical flaws. If we were really ``often not very 
influential'' it was not for lack of technical expertise or tenacity in 
attempting to get a point across.
    We grieved with NASA and the world at the loss of Columbia and her 
gallant crew. We tried to understand our role with respect to the 
tragedy. At no time did we attempt to identify individuals who might be 
responsible. Rather we focused on processes that failed and on 
organizational structures that were faulty. We are convinced that no 
one within NASA wants to be unsafe or to unnecessarily endanger people 
or property. Given the enormity of the disaster it is easy to forget 
that NASA is fundamentally safe. There are thousands of potentially 
dangerous processes, such as moving heavy machinery and working with 
caustic chemicals, accomplished safely every day by NASA personnel and 
contractors.
    Our single-minded purpose as a Panel was to assure the safety of 
ongoing and future NASA projects. It is up to those who follow to 
assure that safety remains the number one concern of the NASA family.
                                Appendix
 Aerospace Safety Advisory Panel--Safety Organization and Culture Team

                  Initial Findings and Recommendations

                            August 20, 2003

    This paper documents initial findings of the Safety Organization 
and Culture Team. This paper also includes an initial recommendation 
worthy of consideration for immediate action. The Team will continue to 
develop these findings and issue recommendations through the Panel by 
benchmarking outside organizations, reviewing documents, interviewing 
individual NASA personnel, and discussing issues with NASA management 
and safety organizations.
    For purposes of this study, the Team is organizing its 
investigation and review into three categories: Culture, Formalism of 
Safety, and Safety Organizations.
Initial Findings

    1. Culture: Attitudes, Behavior, and Identity. The NASA ``safety 
culture'' includes safety attitudes and behavior evidenced by 
individuals and organizations. In addition, safety culture includes a 
sense of community and responsibility for that community among all 
individuals involved in NASA.
    NASA is focused on safety throughout the agency. Notwithstanding 
the Columbia disaster, NASA personnel deal daily with hazardous 
materials, processes, and procedures. Accidents are infrequent, and, 
safety is explicitly prized by the agency as a whole.
    However, NASA's ``can do'' attitude could motivate projects to 
continue despite resource and schedule constraints. ASAP is concerned 
that safety is treated as a ``consumable'' in the same sense as 
schedule and budget in the push to meet flight commitments and 
schedules. Work-arounds, ``within family'' rationale, acceptance of out 
of specifications conditions, etc., have became standard practice. By 
contrast, the U.S. Navy submarine force and nuclear reactors programs, 
as shown in the Navy Benchmark Study, vest safety authority in 
independent organizations that oversee all programs and projects. There 
are no waivers to safety-critical requirements in any circumstances 
short of dire emergency.
    The Panel also notes that in its review of the Orbital Space Plane 
(OSP) program, safety requirements did not appear at the upper levels 
of program requirements documents. The program made a conscious 
decision to leave the formulation of those requirements to the 
contractors. In the absence of high level safety requirements, there is 
little basis for a safety comparison among proposals. Without recording 
such requirements, there is risk that schedule and funding pressures 
may lead to degradation of safety. OSP acceleration could compound this 
problem.
    As indicated in the ASAP 2002 Annual Report, many jobs in safety 
organizations are not held in high regard. There is a general belief 
that individuals in those positions are not useful in ``getting the job 
done.''

    2. Formalism of Safety. Safety formalism at NASA includes 
documentation of requirements and guidelines, defined processes, 
training and certification of personnel, and ongoing assessment and 
evaluation.
    NASA has compiled large numbers of safety requirements and 
guidelines, which are published in a hierarchy of documents. The Panel 
is concerned that ``requirements'' and ``guidelines'' seem to be used 
interchangeably. While many NASA Standards and Guidelines are useful, 
they have been weakened over time to accommodate project constraints. 
Standards and guidelines must be kept vital in both senses of the word. 
They must be considered a necessary part of all development efforts. 
They must be kept updated, current, and appropriate to their intent.
    Safety engineering at the systems level needs to be improved. 
System safety can best be achieved by eliminating and controlling 
hazards through specific design and operating approaches. It is 
compromised by inadequate systems engineering practices, and is 
characterized by bottom-up analysis and an over-emphasis on component 
engineering. While the Panel supports the use of Probabilistic Risk 
Assessment (PRA), the Panel cautions that the PRA is not a substitute 
for a rigorous system safety design process.
    The NASA process for assuring compliance with safety requirements 
is weak. This derives from the ability to waive requirements at the 
program level. It is exacerbated by inadequate safety organization 
authority. Because safety compliance may degrade over time, strong 
trend analysis capability is needed. The Panel is concerned that there 
is insufficient authority, responsibility and accountability vested in 
safety organizations.
    NASA needs to have stronger processes or structures in place to 
keep technical requirements current and validated. Similarly, the 
certification of systems against those requirements can diminish over 
time. In Shuttle, there are examples where components and procedures 
have changed without requisite recertification against safety and 
system level requirements.

    3. Safety Organizations. The NASA safety organization includes 
implicit and explicit safety organizations spanning Headquarters, the 
Centers, and contractors. These organizations interrelate with each 
other, and with programs, projects, technical, and support 
organizations through lines of responsibility, authority, and 
accountability.
    Safety organizations and related authority, responsibility, and 
accountability, vary from Center to Center, project to project, and 
program to program. The organizational architecture is constructed on 
an as-needed basis rather than through a defined and approved process. 
Standards on how to develop and operate safety organizations do not 
always exist or are not rigorously followed.
    There is no single assignment of responsibility for compliance with 
safety requirements (technical and procedural). In most cases, this 
lies with the program/project manager. It is not likely that that 
manager has a strong background in safety analysis, standards, or 
methods. Because the manager has full authority, recommendations from 
safety officials can be easily over-ridden. In the Navy, for example, 
safety issues are under the full authority of the safety organization.
    The Panel is concerned that the OSP program shows no clear 
ownership of system safety requirements. These requirements are caught 
up in a struggle between safety and systems engineering organizations. 
OSP safety is weakened by the lack of cooperation and clear authority 
and responsibility.
    In some cases, safety organizations receive base funding 
independent of projects. In others, safety organizations depend solely 
on project funds. In all cases examined by the Panel, safety 
organizations do not have real authority in terms of control of funds 
spent by the project. At best, their approval is advisory to the 
project manager. There is, therefore, little independent assessment of 
safety and minimal impetus to attract top-level, highly-qualified, and 
well respected system safety engineers.
Initial Recommendation
Comment:
    It is traditional in NASA for project and program managers to have 
the authority to authorize waivers to safety requirements. Safety 
critical waiver authority should reside with an independent safety 
organization using independent technical evaluation. Moving this 
authority would increase the management oversight of safety-related 
decisions and would strongly support the creation of a well-respected 
and highly-skilled safety organization.
Recommendation:
    ASAP recommends that NASA institute a process change that requires 
that waiver requests to safety critical requirements be submitted by 
project and program managers to a safety organization independent of 
the program/project. That organization would have sole authority, 
excepting appeal outside the program/project potentially moving up to 
the level of the Administrator.

    Senator Brownback. Thank you.
    Let's run the clock at 7 minutes here, and then we can go 
back and forth in some organized fashion.
    Mr. Readdy, thank you for being here. And you've heard 
comments and criticism. I have two points. One is on the safety 
factors going to ISS. There were a lot of concerns being 
addressed early this week. Are you a hundred percent confident 
of the decision NASA made to launch this scientific crew, up to 
the space station on the Russian vehicle?
    Mr. Readdy. Yes, sir.
    Senator Brownback. And the critiques within your own 
organization challenging this decision? I think your comments 
are that this is the procedure that you want to have, and you 
think you've addressed the issues.
    Mr. Readdy. Absolutely. And their issues had to do with a 
future concern. There was no immediate concern for the 
astronauts. We put in place mitigation strategies to bring back 
the samples and interview the crew, make sure the crew was 
aware.
    Senator Brownback. At what point in time did the concerns 
from your organization come about? You said their issues have 
to do with a future concern. Do we have any sort of timeline as 
to when we think that the longer you maintain this system, the 
possibilities of failure increase?
    Mr. Readdy. What they were talking about is, without 
resupply, if these monitoring systems were to malfunction, that 
you would have to rely on some other backup systems, and, 
without quantifying it, there would be a slightly increased 
risk that perhaps at some point you would want to take the crew 
off. But these are not near-term issues.
    Senator Brownback. And what-term are the issues if they're 
not near-term? Are they six month issues? Are they one year 
issues?
    Mr. Readdy. Yes, sir. When we assessed it, we didn't think 
that it was an issue for the full duration of the six month 
increment.
    Senator Brownback. OK. Past that, does it become a bigger 
issue?
    Mr. Readdy. Well, at that point, we have a planned rotation 
of the crews onboard, and at that point we would also expect to 
have Progress vehicles, and that was part of our mitigation 
strategy, was to fly repair parts on the progresses.
    If I could wind the clock back a little bit, one of the 
lessons that we learned during the Shuttle Mir program, from 
the Russians, was that logistics--just like Antarctica, for 
example, the scientific endeavors that are conducted in 
Antarctica--it's driven by logistics. A carrier battle group 
deployed overseas is driven by logistics. The same thing with 
the space station. There are no resources in situ, really, 
other than solar energy. So it's all driven by logistics. So 
with reduced logistics, then you have reduced ability to 
conduct repairs on orbit.
    So we expect to manifest repair parts on a subsequent 
Progress in order to mitigate that. But, in the meantime, to 
assure ourselves that the environment onboard is safe, we have 
the samples to analyze.
    Senator Brownback. And since the media reports have come 
out, the other criticism--I presume there has been a doubling 
back again within NASA to look through--here was the decision 
factors for us to go, and has there been any additional 
thoughts of what else NASA should do?
    Here I'm building off the last shuttle disaster, where, you 
know, somebody saw this chunk hit the wing of the shuttle, and 
then some people said, ``Well, you should have taken a 
photograph,'' others, no, and it slid on through the system. 
You've doubled back, undoubtedly, again, looked again at your 
decision to launch to this time at the space station. Are there 
any other mitigating issues or things that you've decided to do 
since looking again at whether or not this was a safe launch to 
the ISS?
    Mr. Readdy. Well, to that end, the night before the launch 
we conducted an additional stage operational readiness review 
to make sure that in the interval between the Flight Readiness 
Review and the launch, that there had been no degradation, no 
change in status of the station. So we did that.
    But I'd have to say that I was very encouraged by the whole 
conduct of the Flight Readiness Review, because those 
individuals brought their concern forward. Matter of fact, 
their management insisted that they bring them forward. They 
also were present at the Flight Readiness Review, at my 
request, so that they could comment on their concerns, which 
had been addressed in the interval between their Level 3 Life 
Sciences Review and the Level 1 Flight Readiness Review. Their 
concerns had been addressed by a mitigation plan to get the 
samples back in order to understand the status of the 
atmosphere onboard the station right now.
    So I felt very comforted by the fact that we had a very 
open discussion, that the individuals not only came forward 
with their concerns, that they were satisfied with the 
proceedings. And we congratulated them not only publicly, but 
afterwards I went to both individuals and commended them for 
stepping forward. That's exactly the kind of behavior we want 
to encourage at NASA, because safety is everybody's 
responsibility.
    Senator Brownback. Mr. Li, I'm going to go into the second 
area of questioning that I'm curious about, and that is the 
value of the science that we're getting out of the space 
station. Dr. Park questions it, others back it. Space station 
dollar figure I have today, it's cost us about $32 billion to 
date, give or take a couple of billion, and we're not done with 
it.
    I was given a list of the scientific experiments that have 
been done on the last ISS expenditure, and, to be honest, I'm 
quite concerned about the list, whether it's worth the risk and 
investment. Some of the experiments conducted include an in-
flight journals on stress felt by crews on long-duration 
flights. I can see some of that. Demonstration explaining sound 
and demonstration explaining how toys function differently in 
space. That one stretches me to understand the significance of 
doing that.
    And this gets to the core issue that I hear other Members 
of Congress raise, and that I raise all the time, is--is this 
cost and risk--and the risk is far more valuable and important 
to me than the cost; the cost is significant, but the risk of 
human life, is it worth the scientific knowledge we are gaining 
out of the space station? Has GAO done a pointed study of the 
value of the science we're getting out of ISS?
    Mr. Li. No, Mr. Chairman, we have not. But to compound the 
issue that you just presented, and since you did mention the 
OSB, we're talking about a situation not only about the cost, 
is it worth the cost of the space station, it's all the support 
mechanisms and support systems that go along with the station 
also. So you would have to factor in the extra cost of the OSB 
and the cost of the shuttle and whatever it would take to make 
the shuttle safe again. Then you have that investment. You have 
to compare that with what benefits you would achieve.
    Now, the point--the benefits that you just outlined there, 
to be fair to NASA, are those that have been achieved because a 
lot of the materials, science materials, and other facilities, 
are not yet on orbit. It would be more fair to be able to 
identify and to be able to talk about what the benefits would 
be once we have that core complete up there. And we have not 
achieved that yet.
    There are many issues associated with when we're going to 
be getting to core complete, but if you were to take a look at 
only the benefits that are achieved right now, you're right, it 
does not look like a promising picture.
    Senator Brownback. We'll go 10 minute rounds, if that's all 
right with you, Bill. I'd like to go on with this a little bit 
further.
    What have we learned, or are we learning or likely to 
learn, from the space station that will help us significantly 
in going to Mars if we decide to go to Mars?
    Mr. Li. Well, I am not a scientist. I'm a engineer by 
background. But from what--my understanding is that being able 
to prove and to be able to investigate long-term presence in 
space is crucial to ever wanting to go to Mars. And the space 
station would provide that environment in which we would be 
able to make those sorts of decisions and to find out what are 
some of the issues associated with long-term space.
    Senator Brownback. Mr. Readdy, that same question?
    Mr. Readdy. Well, I think Mr. Li spelled it out. It comes 
down to being able to sustain the human body for a trip of that 
duration. Radiation, for example. We don't know what kind of 
mutations might occur. The effects of microgravity on your 
vestibular system, the effects of microgravity also on your 
circulation system, where you go from microgravity back into a-
third gravity, for example. The long duration effects, quite 
simply, aren't known, and we need long-duration exposure 
onboard a research platform, like International Space Station, 
in order to understand those.
    Senator Brownback. Dr. Park, you're well known, and you've 
stated your position clearly in the past and again today, and I 
appreciate your doing that. What are we learning on ISS that is 
built on or that we didn't know or didn't learn from Soviet Mir 
or Sky Lab on this long-term viability of man in space? Are we 
learning new information here that's going to allow us to go to 
Mars?
    Dr. Park. Well, I think that was the concern that was 
expressed by Dr. Kuznetz in that white paper of his. The 
concern is that we really don't know how to find the 
countermeasures, as he calls it in that report. We can take a 
lot more urine analyses and determine how much calcium people 
are losing. And we've been doing that for 20 years, more than 
20 years. But if we do that for a longer time, that's not going 
to tell us much more.
    What we need are the countermeasures, and there just does 
not seem to be anything planned for the space station that 
really gets at developing countermeasures for these problems.
    Senator Brownback. Dr. Pawelczyk, what about those 
countermeasures? That would seem to be in your field of study 
and thought. Are we developing any of those?
    Dr. Pawelczyk. We certainly are, Senator. And, in fact, the 
specific example that I cited of a variable gravity research 
platform is only capable onboard the International Space 
Station. And let me explain that in a little more detail.
    In about five or 6 years--Dr. Readdy can confirm the exact 
timeframe--we'll have a centrifuge onboard that was built by 
our friends, the Japanese. It has the ability to place these 
habitats and rotate them so that the acceleration stress we can 
make equal to any gravity stress we want. So we've eliminated 
the effects of Earth gravity, because we're in free fall, and 
now we can dial in 38 percent of Earth gravity, which 
corresponds to the gravity of the planet Mars. There's no other 
place to do this. And now we have the capability to keep that 
animal there for a long period of time and study. Can we keep a 
person, an animal, on Mars for 10 days, 30 days, a year and a 
half? These are absolutely essential pieces of information to 
understand in order to design that Martian mission.
    Senator Brownback. Mr. Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Dr. Pawelczyk, I'm quite intrigued by your statement that 
we are learning that gravity alters gene expression of cells, 
which would affect our basic structure and composition. Would 
you expand on that, please?
    Dr. Pawelczyk. Certainly, Senator. And you've picked one of 
the most profound findings that we've seen from microgravity 
research.
    Much of this work has been done as part of a cell culture, 
a series of experiments from Timothy Hammond at Tulane 
University. And using the ideas of gene expression, in essence 
as much of the human genome that we can fit on a chip--and we 
can fit a lot at this point in time--and to see whether or not 
genes go up or genes go down. This is the step beyond the human 
genome project.
    What we know is that something in excess of 15 percent of 
the human genome that we've characterized changes a lot in 
space. Now, that has been tested against rigorous ground 
controls, and the thing that seems to cause that is the absence 
of gravity. And what this exactly means, I wish I could tell 
you. But it is absolutely profound.
    We have developed, life has developed, always, in a 
gravitation environment. And here we see that when we take 
gravity away, something happens, and that's the next steps that 
we need. That's why we need this rigorous translational 
research program to identify what those genes are, what they 
do, alone and in combination, and how that affects the ultimate 
organism, in terms of bone, muscle, the cardiovascular system, 
all of these things that have been mentioned previously.
    Senator Nelson. Is this observed scientifically, that, in 
fact, 15 percent of cells do change when you take away gravity? 
Or genes, I guess not cells.
    Dr. Pawelczyk. Fifteen--that's right. I believe the exact 
number is about 17 percent of--in those studies, something on 
the order of 10,000 genes that were characterized.
    Senator Nelson. And this is over a period of how many, 
approximately, experiments that have been flown?
    Dr. Pawelczyk. I believe three on that. Would that be--I'm 
looking to Mary Kicza on that. Three different experiments 
flown in cell culture?
    Ms. Kicza. You have an experiment just recently flown.
    Senator Brownback. We need to have a person come up and 
identify yourself so people can get the record on that, please.
    Dr. Pawelczyk. At least three, Senator.
    Senator Nelson. The question is--tell me something about 
the experiments and when did they start. You said there are 
three that have been done on gravity altering gene expression 
of cells.
    Ms. Kicza. The experiment that I have specific information 
on is with respect to research that has been done on the 
International Space Station, and it has revealed that there is 
a significant difference in gene expression, specifically in 
the genetic response of human kidney cells, and that is greatly 
exceeding all predictions that had been made to date. That is 
the specific example I have. We can get you the additional 
information on----
    Senator Nelson. OK. And what about the percent--15, 17 
percent? Can you define that?
    Ms. Kicza. I can provide you the information for the 
record. I do not have that information with me.
    [The information requested follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    

    Senator Brownback. And would you identify yourself for the 
record so we have----
    Ms. Kicza. My name is Mary Kicza. I'm Associate 
Administrator for the Office of Biological Research.
    Senator Brownback. Thank you.
    Senator Nelson. OK. Well, you know, this is rather profound 
if we've got something going here.
    Now, Dr. Pawelczyk, you heard what Dr. Park said, that 
protein crystal growth, he said, has fizzled. What's your 
opinion?
    Dr. Pawelczyk. I think the opinion of the scientific 
community--and this was a area of healthy debate on the ReMAP 
task force--is mixed at this point. This has been a 
longstanding part of NASA's biological research program. As 
part of the ReMAP process, we actually de-prioritized the 
protein crystallography program, and I believe we put it at 
priority four, out of four. We didn't completely eliminate it, 
but we put it at the bottom tier.
    Senator Nelson. Well, that would indicate the scientific 
community and NASA doesn't think that it's shown the promise 
that it was originally thought.
    Dr. Pawelczyk. There have been dissenting views that have 
been expressed in regard to that. Protein crystallization is a 
challenging process. There have been a number of refinements 
that have emerged over the years. A state-of-the-art facility 
has been created on the ISS, and it really becomes an issue of 
saying, well, if we didn't quite do the experiment right in the 
past, is this facility that does it absolutely correctly so we 
can know for sure. And I think that's the general trend of 
those dissenting opinions. Others would say if we've tried for 
20 years, that ought to be enough.
    Senator Nelson. Well, the promise of microgravity and 
protein crystal growth was, taking away the influence of 
gravity, that the crystal ought to grow larger and more pure, 
to use the vernacular, so that upon examination either by 
something like an electron microscope or X-ray diffraction, 
that you'd be able to unlock the secret of the architecture or 
the molecular structure. Has that not occurred, Dr. Park?
    Dr. Park. No, the problem has been that whatever you can 
grow, apparently, in microgravity, you can also grow right here 
on Earth for about 1 percent the cost. So it has brought 
nothing new.
    Senator Nelson.With the same degree of success of 
determining the molecular structure?
    Dr. Park. Well, it is perfectly clear that you can grow 
crystals in space that you can determine molecular structure 
from, but you can grow the same crystals here on Earth.
    Senator Nelson. Have we----
    Dr. Park. Really, gravity is just not the limiting factor 
in----
    Senator Nelson. --to your knowledge, have we been able to 
grow a crystal in space that we were able to get the 
architecture from that we were not able to grow that crystal on 
Earth and get the same result?
    Dr. Park. No, that has not happened.
    Senator Nelson. You say absolutely that hasn't happened.
    Dr. Park. I have talked recently with many of the 
crystallographers. They tell me that it just has not happened.
    Senator Nelson. Is that why NASA has demoted that 
experiment to category four, Dr. Pawelczyk?
    Dr. Pawelczyk. We looked at that exact same question on the 
ReMAP task force, and we did not feel that we could find 
evidence that, in fact, there was protein crystals that had 
been produced in space that could not be produced on the 
ground. So that was part of that demoting process.
    Ms. Kicza. May I offer something?
    Senator Nelson. Please.
    Ms. Kicza. What I'd like to indicate is, it's true, we have 
had protein crystal growth in our program for quite some time. 
First, I'd like to highlight some of the specific returns on 
that, and then talk about what was recommended in ReMAP and how 
we've responded to that.
    Senator Nelson. Pull that mike to you a little closer.
    Ms. Kicza. I have a soft voice, so I will try to speak up.
    At least 14 patents and the creation of two biotech 
companies so far have resulted from NASA's investment in the 
protein crystal growth program. The flight program has produced 
the most accurate and detailed three-dimensional atomic 
structures of about 40 proteins, DNAs, and viruses. Of the 
17,000 proteins in the Nation's protein data base, only 100 
have resolution better than one angstrom. NASA-sponsored 
research is responsible for four of those one hundred.
    The ReMAP committee, in its recommendations regarding 
protein crystal growth, recommended that NASA follow the 
instructions that were previously highlighted in an NRC report. 
The NRC report noted that the pace of technology on the ground 
was allowing many of these crystals to be grown on the ground; 
however, there were a limited number of types of proteins that 
still they were not able to grow on the ground, and they 
directed NASA--or recommended that NASA focus on those 
proteins. That's exactly what we've done. We've established an 
institute to help us identify those proteins, and we have 
identified a limited window of time for flight opportunity for 
those specific proteins to fly. And beyond that, we have 
terminated the funding for that program.
    If those results are extremely promising, then obviously we 
would work with the research community to determine what the 
future action should be.
    Senator Nelson. What say you, Dr. Park, to that?
    Dr. Park. Well, I couldn't hear quite all of it, but, you 
know, I'm interested in seeing the information. But it's 
certainly--the view is pretty strong with the scientific 
community that this has just not been worth it.
    Senator Nelson. And how many of those proteins have been 
identified that do have promise?
    Ms. Kicza. As I had said, 40 structures had been 
determined, and of the four that were greater than--of the 
17,000, 100 were greater than one angstrom, the resolution 
greater than one angstrom, and four of those have been NASA's. 
We can provide the specifics on those proteins.
    Senator Nelson. Yes. Are those the four that you're going 
to fly additionally?
    Ms. Kicza. That's already done.
    Senator Nelson. Right.
    Ms. Kicza. That's the result.
    Senator Nelson. So I'm asking about the ones that you said 
have promise that you're going to find flight opportunities 
for.
    Ms. Kicza. Those are proteins that, on the ground, 
researchers are still have a difficult time crystallizing. They 
tend to be membrane proteins, and it's those specific types of 
proteins that are being selected. We can get information for 
the record on those particular proteins.
    Senator Nelson. Are we talking about a half a dozen, a 
dozen?
    Ms. Kicza. I don't have the exact numbers, but I would 
expect that there are a dozen or more.
    Senator Nelson. Let's go back to the Chairman's question on 
justifying the ISS for a Mars mission. You talked about the 
animal habitat, how you could dial in .38 or whatever it is. Is 
it 38 percent gravity?
    Dr. Pawelczyk. Correct.
    Senator Nelson. What else can we do on the space station 
that gets us ready to go to Mars?
    Dr. Pawelczyk. If you look at the success or failure of 
polar expeditions at the turn of the century, many of those 
were based on issues of compatibility. And although this sounds 
like the realm of pop psychology, it's really not. This is 
perhaps one of the most important parts of how humans work 
together. People have joked and said, ``Well, if half our 
American society is unable to live together in wedlock, how in 
the world are we going to keep them together in an 
International Space Station or a Martian planetary 
spacecraft?'' It's not a joking matter. It's a real issue. And 
some of the things you've seen--for instance, the chronicling 
or journaling article--in fact, much of what we've learned 
about expedition is from these early journals from these early 
explorers. So these are essential items that have the need--we 
need to learn how to do it, and we can only do that by staying 
in spaces like this.
    In combination with the skeletal problems we see, the 
skeleton is controlled, and most of its stress actually comes 
from the muscles that attach to it. And unquestionably, they 
atrophy to a significant extent in microgravity--in particular, 
those of the legs and the lower body, the area where we see 
bone loss, as well.
    We need to understand what genes are turned on there and 
what is it that restores muscle mass, in addition to inhibiting 
the loss of muscle mass. Muscle is a plastic tissue. It's 
turning over all the time, as are many tissues that we have. We 
generate, if you look at just protein turnover, roughly--we 
turn over our entire heart in about 3 weeks. So as this process 
occurs, it's very dynamic. The only way to assess that is to 
take away these loading conditions.
    Senator Nelson. Twenty to thirty percent of muscle mass 
lost over X-number of days in zero gravity, 10 percent of bone 
mass loss--I don't know what the period of time is; I guess 
it's a long time. Do you know, Dr. Readdy?
    Mr. Readdy. Approximately 6 months, sir.
    Senator Nelson. OK. And under conventional technology, the 
fastest that we could get to Mars would be about 6 months, 
maybe more like ten?
    Mr. Readdy. Yes, sir.
    Senator Nelson. What about Franklin Chang's rocket that 
would get us there in 39 days?
    Mr. Readdy. Well, as you know----
    Senator Nelson. And it could create gravity at the same 
time by spinning.
    Mr. Readdy. Yes, sir. Clearly, the duration of the trip is 
what impacts exploration beyond low-Earth orbit. The longer it 
takes, the more supplies you have to have, just like going to 
the Poles, just like the early explorers.
    Dr. Pawelczyk. The second part of that, Senator, of course, 
is how long you stay when you get there.
    Senator Nelson. Right.
    Dr. Pawelczyk. If we discover, on the International Space 
Station, that 38 percent is good enough to protect bone, we're 
in great shape to stay on Mars a long time.
    Senator Nelson. Right.
    Dr. Pawelczyk. If it doesn't, that completely changes the 
design on the planet.
    Senator Nelson. Right. I misspoke. I talked about spinning 
as centrifugal force on some designs. And in Franklin's case, 
his rocket would accelerate halfway there, decelerate the other 
halfway, and that's what would give you the effects of gravity.
    Mr. Readdy. And the research that we're talking about with 
the centrifuge allows you to dial in that level of acceleration 
potentially so that you can see what the threshold is. Maybe 
that's sufficient, maybe it's not. We don't know.
    Senator Nelson. How big is that centrifuge, by the way, 
going to be on the space station?
    Mr. Readdy. The accommodation facility for it is about the 
same diameter as all the other modules, so that'll give you, 
kind of, the shuttle payload bay as a reference. And we have 
pictures that we could show you.
    Ms. Kicza. .8 meters.
    Mr. Readdy. .8 meters. Is that diameter?
    Ms. Kicza. Four meters, excuse me.
    Senator Nelson. Four meters. So are you going to put an 
astronaut in it?
    Mr. Readdy. No, sir. This is just for biological specimens 
and----
    Senator Nelson. I see.
    Senator Brownback. Just a couple of other ones.
    Mr. Readdy, when we met last week, you said that you would 
provide me a list of experiments that are being--a 
comprehensive list of the scientific experiments NASA is doing 
or proposing on the space station. I've gotten a partial list 
of that. I would like to get the complete list of information.
    Mr. Readdy. Yes, sir. We'll give you a more complete list.
    [The information previously referred to is retained in the 
Committee files.]
    Senator Brownback. Also, I'd like to note in the 
recommendations of the Research Maximization and Prioritization 
Task Force (ReMAP), stated, in July 2002, that if enhancements 
to ISS beyond U.S. core complete are not anticipated, NASA 
should cease to characterize the ISS as a science-driven 
program. I don't know if you're familiar with that statement or 
not. Would that still be viewed as the recommendation, in the 
view of ISS?
    Mr. Readdy. ISS has to be viewed not only as a scientific 
research platform, but also the gateway to doing anything else 
in order to understand what goes on with the human body, in 
order to deal with the kind of autonomy that it'll take to go 
someplace else.
    Robert Heinlein said that low-Earth orbit is halfway to 
anywhere in this solar system. And clearly we can learn it much 
closer to home, rather than embark immediately. And I don't 
think we would have the means to go to Mars right this minute 
anyhow. We have ten red risks that have to do with supporting 
the humans, much less the reliability of the spacecraft that 
they would inhabit for that long period of time. So there's 
clearly an awful lot that we have to do.
    Dr. Pawelczyk talked about compatibility. That's one 
science that we have to look at. Sustaining the human body is 
certainly another. But the list goes on and on and on.
    Senator Brownback. What are some of the others?
    Mr. Readdy. I think Mary Kicza would probably be able to 
fill in----
    Senator Brownback. Well, why don't you submit that, then, 
for the record. I thought maybe you had them on the top of your 
mind that we could go off of that.
    [The information referred to follows:]

Examples of Benefits of Recent ISS Research

    Osteoporosis & Kidney Stones--Biomedical research on the ISS. 
Although biomedical experiments in space are goal-directed, they allow 
investigators to study biomedical problems that plague people on Earth, 
but most typically as part of a systemic disease (e.g., osteoporosis, 
balance disorders, sensori motor disturbances, etc.). Adaptation to 
space results in these normally pathological conditions in healthy and 
fit adults, offering a window into disease mechanisms without the 
confounding factors of systemic decline seen in patients. In the first 
7 ISS increments, significant additions have been made to our 
understanding of bone loss (Lang), data have been added to the kidney 
stone experiment (Whitson), experiments on sensori-motor readaptation 
have been begun (Paloski & Bloomberg), further data have been collected 
on crew psychosocial interaction issues (Kanas, Stuster), radiation 
dosimetry experiments were conducted to characterize the ISS 
environment, and the list goes on.

    Cleaner Air--Plant research done on the ISS. A device built to 
clean the air in the plant chamber used on the ISS is now being used in 
florists and supermarkets to keep products fresh. It converts the 
ethylene produced by the plants into CO2 and water. This same device 
has also been modified and spun off into a commercial device that kills 
anthrax and other pathogens. This is used now in some operating rooms 
in the United States.

    Early Detection of Cataracts--Colloids Research on the ISS. 
Colloids are very small particles suspended in a liquid or gas. Over 
time, the particles self-assemble into a variety of structures. These 
structures have potential applications to next generation computer and 
communications systems, pharmaceuticals and a host of other industrial 
processes. The principal investigator for this research, Dr. David 
Weitz of Harvard University, recently published his results in Science, 
a leading scientific journal.
    One of the instruments developed in support Dr. Weitz's on-orbit 
research is now being studied by the National Eye Institute for broad 
application, to detect the formation of proteins in the eye which 
appear to be precursors to cataract formation. This same technique is 
being studied for possible application in a range of non-invasive 
medical diagnostics, including as a means for measuring blood glucose 
levels in diabetics.

    Precise Laser Surgery--Ground-based research in support of future 
experiments to be flown on the ISS: The October 27, 2003 edition of 
Business Week, page 82, highlights a new kind of glass that boosts a 
laser's efficiency by 20 percent at a fraction of the cost. This 
research, developed by Dr. Dick Weber, Containerless Research Inc., has 
applications that include power lasers for cutting metal, and precision 
medical lasers for surgery.

    Cancer Research--Shuttle-based flight research that will transition 
to the ISS. NASA's Bioreactor--a tool developed and used by NASA to 
develop 3 dimensional cell and tissue cultures--has yielded 25 patents 
and more than 20 licenses. Over 6,000 units are now in universities, 
medical centers and the National Institutes of Health. Just a month ago 
Nature, a leading scientific journal, noted that the age old ``Petri 
dish'' may be rendered obsolete because we can now grow things in 3 
dimensions. This was what NASA's bioreactor technology pioneered. The 
bioreactor most recently flew on STS-107, supporting an investigation 
involving prostate cancer. The investigator for the 107 research was 
Dr. Leland Chung from Emory University.

    Senator Brownback. I hope we can get the clear list and the 
ideas of the top priorities of what ISS is. Do we know, or are 
we anticipating that we're going to get the add-ons to ISS by 
other countries? Is this something that's likely not to take 
place?
    Mr. Readdy. Well, weeks ago, we were in Bremen, and we saw 
the Columbus Laboratory. We've also seen the autonomous 
transfer vehicle. We've seen these facilities being built. Been 
over to Japan while they were assembling the GEM. It's now 
arrived at the Kennedy Space Center. It was already integrated 
and checked out, in fact, during the months of August and 
September. So we have clear evidence that the partners are 
producing their hardware. Our hardware, up through U.S. core 
complete, is really to go at the Kennedy Space Center.
    Senator Brownback. So you believe we will be able to have 
the full complement of ISS?
    Mr. Readdy. Eventually. There was IMCE, International Space 
Station Management and Cost Evaluation, that was chartered by 
the Office of Management and Budget. It was headed by Tom 
Young, the results of which were given to the NASA, and we have 
gone off and implemented those. Those were a precondition to 
proceeding beyond U.S. core complete. We think we have answered 
those concerns. But clearly in the aftermath of Columbia, there 
will be impacts to the shuttle fleets being grounded.
    Senator Brownback. Well, there are obvious impacts on that. 
Now, do you have any ideas about when these extra components 
from other nations will be ready to put up and likely that we 
could put them up if you have an operational space shuttle?
    Mr. Readdy. Yes, sir. And we'll provide that for you. We 
have detailed manifests that we have built.
    Senator Brownback. OK.
    Mr. Readdy. Yes, sir.
    Senator Brownback. All right. Gentlemen, thank you very 
much.
    Senator Nelson, one more question.
    Senator Nelson. Mr. Readdy, I'd like a commitment from this 
Administration that you all will keep transparent the budget 
for the ISS, as separate from the budget for the space shuttle, 
so that we can see where the dollars are going and it is not 
all lumped together like it was over the past decade.
    Mr. Readdy. Yes, sir.
    Senator Nelson. OK. Now, is that something that we need to 
get that commitment from the Administrator?
    Mr. Readdy. No, sir. You have that commitment from me. We, 
as a result of the IMCE, implemented a system called the CARD. 
We have integrated financial management. We can dive down into 
whatever level of detail you'd care for, sir, and we'll be 
happy to brief you.
    Senator Nelson. When you present your budget, does it have 
that classification of human spaceflight and everything is 
lumped there together, or is it broken out on space station and 
space shuttle?
    Mr. Readdy. It is a human spaceflight account, sir.
    Senator Nelson. OK. That's where it's difficult for the 
average American to understand the difference between the two. 
And what I'd like--and this being the authorizing committee, 
since we've got the oversight function and the authorization 
function--is to make that simple. I say this for the obvious 
reason, that what happened was that money got pulled out of the 
space shuttle and the safety upgrades in the past, over a 
period of 12 years, going back to the early 1990s, to cover the 
losses, the overruns in the space station. That's part of what 
Admiral Gehman had indicated in his report. So as you all 
implement that report, it is my request and I would hope that I 
can speak for the Chairman and the big Chairman of the Full 
Committee, to make it simple, that we have these accounts 
broken out.
    Mr. Readdy. Yes, sir.
    Senator Brownback. Good. Senator Nelson, thank you very 
much for joining us. Appreciate very much your discussion and 
clarity on this issue.
    The hearing is adjourned.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

                                        Canoga Park, CA, March 2003

To Whom It May Concern
From: Mr. Masse Bloomfield

    This letter concerns my ideas for NASA reusable launch vehicles 
(RLV) as well as what I think the objectives of our space effort should 
be. With the Columbia disaster, I think NASA should rethink its 
programs to develop an RLV. Also you might want to review the NASA 
budget in terms of getting a colony of men to the stars. I am going to 
suggest what I think the United States space program should be. I have 
not been satisfied with our space program as it has been directed for 
the last thirty years. The vision NASA has had and executed by NASA 
employees has been extremely short sighted and I feel much of the last 
thirty years has been wasted effort. With the enormous effort and 
billions of dollars expended by NASA in the last twenty-five years, we 
are no closer to returning men to the moon than we were in 1975. A 
dismal report at best.
    The future goal I have for man is to colonize the stars. To do 
that, we have to colonize the planets before we go to the stars. To do 
that, we have to colonize the moon before we colonize the planets. To 
colonize the moon, we need a space tug to go from the International 
Space Station (ISS) to the moon. We also need a vehicle to take men and 
materiel to the ISS at a cost fur less that what we spend on the Space 
Shuttle. The Space Shuttle first flew in 1981, I believe. The 
development of the Shuttle began in the early 1970s. Where is the 
Shuttle's replacement? The Lockheed X-33, the Shuttle's replacement, 
has been cancelled. And as far as I know Kelly Space and Technology 
Company has not been funded for their idea of towing a rocket behind a 
747 and launching that rocket at seven miles at around 500 miles an 
hours. This is about the same idea I have of using a C5A to carry a 
rocket to seven miles and launching it there. Also Kistler has a model 
of jet engines assisting a rocket for use as a launcher. What has NASA 
been doing for the last twenty years in getting low cost earth to low 
orbit launchers? I think that NASA is back to square zero on low cost 
launchers. It is my opinion that the first priority of NASA should be 
to design, develop and build a low cost earth to low orbit launcher. 
Before any other funds are allocated; the low cost launchershould come 
first.
    The ISS should have two primary missions:

  1.  People on the ISS should have the tools to watch for asteroids 
        that might have earth striking orbits; and

  2.  Be the base for moon colonization.

    After these two missions have been accomplished, then go on to do 
the science stuff.
    I am not sure what the ISS is doing now except eating up money. I 
doubt if it has the capability of doing either of the missions I 
mention above. Perhaps you might ask people at NASA why the Hubble 
Space Telescope is not hooked up to the ISS or planned to be hooked up 
to the ISS. As far as I know the ISS does not have sensors for radar, 
infrared or telescopes for the visual range to watch for asteroids.
    We had a space station in the early 1970s called Skylab. We could 
have built several of them, tied them together and had the equivalent 
of the ISS, A bunch of Skylabs could have been constructed in a ring to 
provide artificial gravity. I find it difficult to understand how our 
current ISS can ever be spun so that we get artificial gravity, one of 
my major considerations for a space station.
    Then there is an essential part of the colonization of the moon. We 
need a space tug to go from the ISS to the moon. The space tug could 
also be used for resupply, repair or removal of low orbit vehicles and 
twenty-four hour orbit vehicles. The space tug could take new 
satellites from low orbit to the twenty-four hour orbit. The space tug 
is not even on the drawing board.
    I am a fan of Gerry O'Neill who wrote the book The High Frontier in 
1977. That book outlines what the space program should be. NASA has 
done its best not to follow anything that O'Neill recommended. After 
you have read O'Neill's book, ask the staff at NASA what O'Neill 
recommended was wrong.
    I am not a fan of robotic planetary exploration. I see it as a way 
to eat up money and resources and provide almost nothing to the goal of 
getting a man to the nearest star. We needed to explore the moon before 
we sent men there. Before we sent a man to the moon. we had the 
Surveyor vehicles that determined what the surface of the moon would be 
like. Since we are not considering sending men even to the moon. in my 
mind planetary exploration is just a boondoggle for scientists. When we 
are ready to send men on to Mars, we need a program to make sure what 
Mars is like.
    The first step on the journey to the stars is a low cost reliable 
RLV. I believe every other program at NASA should go bare bones or be 
eliminated so that NASA can focus on a Shuttle replacement. The $4.8 
billion in the Space Launch Initiative should not be devoted to 
research, but should generate hardware capable of getting to low earth 
orbit reliably and at a low cost. The SLI program should be developing 
vehicles that can be tested quickly.
    I think the priorities for NASA should be:

        First: Get a low-cost launch vehicle in operation as soon as 
        possible. The Kelly towed glider rocket looks like an approach.

        Second: Redo the ISS so it can be the way station between the 
        earth andthe moon as well as a platform to watch for dangerous 
        asteroids.

        Third: Design and build a space tug the way O'Neill proposed. 
        It shouldbe used as for repair work, resupply, removal and 
        transporter for bothlow and twenty-four hour satellites and 
        hopefully to take stuff to themoon.

        Fourth: Target the NASA budget to these three items and scrap 
        the rest or if not scrappable put on as low a level of effort 
        as possible.

        Fifth: On a very low priority, NASA should be working on space 
        satellitepower stations. There should be a low-powered 
        experimental spacesatellite power prototype on line within five 
        to seven years. It could bethe precursor of generating 
        electrical power from space.

    To get some idea about what to do about a new RLV, you should talk 
to President Michael J. Gallo at Kelly Space and Technology, San 
Bernardino, CA 92408, the Lockheed people about reviving the X-33, the 
people at Kistler Aerospace in Seattle and the people who built the 
Roton spacecraft as well as others knowledgeable of the RLV industry 
about what to do about RLVs. I like the Kelly approach but other 
vehicles may even be better. In addition to Kelly, there is the White 
Knight-SpaceShipOne combination that Scaled Composites is testing now 
as well as the Pegasus air launched rocket to low earth orbit.
    There is plenty of inertia in the system which comes from NASA 
itself plus the President and the President's staff. Overcoming that 
inertia is not going to be easy. The inertia in the system can block 
all kinds of innovative approaches to space activities.
    It has been discouraging that even with the launch of the Space 
Shuttle and ISS, to see how little we have to show for the last twenty 
years. Perhaps you can get the X-33 restarted and perhaps see that the 
Kelly Astroliner has a test flight in the next three years. Perhaps 
funding the White Knight-SpaceShipOne and Pegasus to see if these 
vehicles could provide low cost pay loads to low earth orbit.
    I have hopes that the United States will have the first colony on 
the moon and the first to have a colony on Mars. Perhaps you can use 
your influence to speed those colonies along. No matter what happens, 
be assured that men will travel to the stars. It is my hope that those 
men will be Americans. If we don't do things right, those men could be 
Chinese, Japanese or European. But in my view, men will be going to the 
stars.
                               Attachment
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               
                                  [all]

                  This page intentionally left blank.
      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
